<html>
<title> - CONFIRMATION HEARING ON THE NOMINATION OF ASA HUTCHINSON TO BE ADMINISTRATOR OF THE DRUG ENFORCEMENT ADMINISTRATION</title>
<body><pre>[Senate Hearing 107-493]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 107-493

    CONFIRMATION HEARING ON THE NOMINATION OF ASA HUTCHINSON TO BE 
          ADMINISTRATOR OF THE DRUG ENFORCEMENT ADMINISTRATION

=======================================================================

                                HEARING

                               before the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 17, 2001

                               __________

                          Serial No. J-107-30

                               __________

         Printed for the use of the Committee on the Judiciary



80-047              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2002

____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                       COMMITTEE ON THE JUDICIARY

                  PATRICK J. LEAHY, Vermont, Chairman
EDWARD M. KENNEDY, Massachusetts     ORRIN G. HATCH, Utah
JOSEPH R. BIDEN, Jr., Delaware       STROM THURMOND, South Carolina
HERBERT KOHL, Wisconsin              CHARLES E. GRASSLEY, Iowa
DIANNE FEINSTEIN, California         ARLEN SPECTER, Pennsylvania
RUSSELL D. FEINGOLD, Wisconsin       JON KYL, Arizona
CHARLES E. SCHUMER, New York         MIKE DeWINE, Ohio
RICHARD J. DURBIN, Illinois          JEFF SESSIONS, Alabama
MARIA CANTWELL, Washington           SAM BROWNBACK, Kansas
JOHN EDWARDS, North Carolina         MITCH McCONNELL, Kentucky
       Bruce A. Cohen, Majority Chief Counsel and Staff Director
                  Sharon Prost, Minority Chief Counsel
                Makan Delrahim, Minority Staff Director


                            C O N T E N T S

                              ----------                              

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Biden, Hon. Joseph R., Jr., a U.S. Senator from the State of 
  Delaware.......................................................    53
DeWine, Hon. Mike, a U.S. Senator from the State of Ohio.........    51
Hatch, Hon. Orrin G., a U.S. Senator from the State of Utah......     4
Kyl, Hon. Jon, a U.S. Senator from the State of Arizona..........    71
Leahy, Hon. Patrick J., a U.S. Senator from the State of Vermont.     1

                               PRESENTERS

Conyers, Hon. John, a Representative in Congress from the State 
  of Michigan....................................................    10
Hutchinson, Hon. Tim, a U.S. Senator from the State of Arkansas..     8
Lincoln, Hon. Blanche L., a U.S. Senator from the State of 
  Arkansas.......................................................     9

                        STATEMENT OF THE NOMINEE

Hutchinson, Hon. Asa, a Representative in Congress from the State 
  of Arkansas....................................................    11
    Questionnaire................................................    15

                       SUBMISSION FOR THE RECORD

Fraternal Order of Police, Gilbert G. Gallegos, National 
  President, Washington, DC, July 17, 2001, letter...............    70

 
    CONFIRMATION HEARING ON THE NOMINATION OF ASA HUTCHINSON TO BE 
          ADMINISTRATOR OF THE DRUG ENFORCEMENT ADMINISTRATION

                              ----------                              


                         TUESDAY, JULY 17, 2001

                                       U.S. Senate,
                                Committee on the Judiciary,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:06 a.m., in 
room SD-226, Dirksen Senate Office Building, Hon. Patrick J. 
Leahy, Chairman of the Committee, presiding.
    Present: Senators Leahy, Biden, Feingold, Durbin, Hatch, 
Specter, DeWine, and Sessions.

OPENING STATEMENT OF HON. PATRICK J. LEAHY, A U.S. SENATOR FROM 
                      THE STATE OF VERMONT

    Chairman Leahy. Good morning. The committee today is going 
to consider the nomination of Asa Hutchinson. Mr. Hutchinson is 
a distinguished Member of the House of Representatives, and he 
has been nominated by President Bush to serve as head of the 
Drug Enforcement Administration.
    Many of us on the committee know Representative Hutchinson 
well from his service within the House Judiciary Committee, 
where he has earned the respect of his peers from both sides of 
the aisle. Indeed, 14 of the committee's Democrats wrote me in 
support of his nomination, and the chairman and ranking member 
of the House Judiciary Committee have strongly supported his 
nomination. Now, their support does not surprise me. I have 
known Asa Hutchinson for a number of years. I know him as a man 
of integrity and intelligence who is committed to reducing drug 
abuse in this country.
    Representative Hutchinson has been deeply involved in drug 
issues as both a United States Attorney in Arkansas in the 
1980's and as a House Member. In addition to serving on the 
House Judiciary Committee, he is a member of the Committee on 
Government Reform's Subcommittee for Criminal Justice, Drug 
Policy, and Human Resources, has served on the Speaker's Task 
Force for a Drug Free America. He has reviewed Plan Colombia as 
a member of the Permanent Select Committee on Intelligence.
    Representative Hutchinson and I have similar views about 
some of the drug issues facing the United States, and I am sure 
we will occasionally have differing views about others. I will 
discuss some of the issues that I believe are important, and I 
look forward to hearing his testimony and his responses.
    Drug abuse has become an increasingly serious problem even 
in my own State of Vermont. Indeed, although Vermont has 
historically had one of the lowest crime rates in the Nation, 
its crime rate rose 5 percent last year as the national rate 
held steady, and drug crimes have increased by 7 percent. 
Recent estimates show that heroin use in Vermont has doubled in 
just the past 3 years, and the number of people seeking drug 
treatment has risen even more rapidly. The average age of a 
first-time heroin user dropped from 27 to 17 during the 1990's, 
a very frightening thing to every parent in Vermont. This has 
signaled the sharp rise in teenage drug abuse.
    Earlier this year, to give one example, Christal Jones, a 
16-year-old girl from Burlington, Vermont, was murdered in New 
York City. According to the reports, she was recruited in 
Burlington to move to New York and become part of a 
prostitution ring to earn money to feed her heroin habit. When 
she died, drugs were found in her body, although that was not 
the cause of her death. Murder was. Christal Jones' tragedy 
apparently is not unique. As many as a dozen Vermont girls may 
have been involved in this New York ring. And since her death, 
others have come forward to say that teenage girls in 
Burlington are prostituting themselves to get money to buy 
heroin.
    Now, when we look at the drug problems facing Vermont and 
all of our States, we find the same thing. It seems clear there 
is a shortage of drug treatment. All of us serving on this 
committee know that the answer is not just law enforcement 
alone, even though that is such a significant and important 
part of it. Senator Hatch and I have joined together with a 
bipartisan coalition of Senators on this committee to introduce 
S. 304, the Drug Abuse Education, Prevention, and Treatment 
Act. Both Senator Hatch and I agree that as important as law 
enforcement is in battling drug abuse, it does not solve our 
drug problem alone. The bill would provide millions of dollars 
not only in my State but all 50 States for programs to offer 
treatment for people addicted to heroin and other drugs, 
hopefully to prevent them from using illegal drugs in the first 
place.
    Donnie Marshall, whom Asa Hutchinson would be succeeding as 
head of the DEA, testified before this committee in March that 
treatment and prevention efforts play a vital role in assisting 
law enforcement. I hope the new director will take a similar 
view.
    I have a number of other concerns about our current drug 
policies. I am increasingly skeptical about the need for and 
fairness of mandatory minimum sentences, and I am pleased that 
we have not imposed mandatory minimums in S. 304, and I 
compliment Senator Hatch for that. I hope we can begin to look 
at amending existing law to reduce our use of them. A 1997 
study by the RAND Corporation of mandatory minimum drug 
sentences found that ``mandatory minimums are not justifiable 
on the basis of cost-effectiveness at reducing cocaine 
consumption, cocaine expenditures, or drug-related crime.'' 
Despite this study and the mounting evidence of prison 
overcrowding, legislators continue to propose additional 
mandatory minimums. I know that Representative Hutchinson has 
expressed some hesitancy about expanding mandatory minimums, 
and I hope we can work together.
    He has also expressed concerns about the sentencing 
disparity between those convicted of offenses involving crack 
and powder cocaine. Current Federal sentencing guidelines treat 
one gram of crack cocaine and 100 grams of powder cocaine 
equally for purposes of determining sentences. I don't think 
that is justifiable. Unfortunately, Congress has not followed 
the recommendation of the U.S. Sentencing Commission, which 
also found it not justifiable.
    Last, I want to see how Federal law enforcement will 
address the tension between Federal power and States' rights in 
those States that have adopted laws permitting marijuana to be 
used for medicinal purposes.
    I will put the rest of my statement in the record because I 
know that the distinguished senior member of the Republican 
side of this committee has a conflict with the Finance 
Committee, so I would yield to Senator Hatch.
    [The prepared statement of Senator Leahy follows:]

 Statement of Hon. Patrick J. Leahy, a U.S. Senator from the State of 
                                Vermont

    The Committee will today consider the nomination of Asa 
Hutchinson, a distinguished Member of the House of 
Representatives, to serve as head of the Drug Enforcement 
Administration. Many of us on the Committee know Representative 
Hutchinson well from his service with the House Judiciary 
Committee, where he has earned the respect of his peers from 
both sides of the aisle. Indeed, 14 of the Committee's 
Democrats wrote me in support of his nomination, and the 
Chairman and Ranking Member of the House Judiciary Committee 
are here today to introduce him. Their support does not 
surprise me, as I know that Asa Hutchinson is a man of 
integrity and intelligence who is committed to reducing drug 
abuse in this country.
    Rep. Hutchinson has been deeply involved in drug issues as 
both a United States Attorney in Arkansas in the 1980s and as a 
House member. In addition to serving on the House Judiciary 
Committee, he is a member of the Committee on Government 
Reform's Subcommittee for Criminal Justice, Drug Policy, and 
Human Resources, has served on the Speaker's Task Force for a 
Drug Free America, and has reviewed Plan Colombia as a member 
of the Permanent Select Committee on Intelligence.
    Rep. Hutchinson and I have similar views about some of the 
drug issues facing the United States, and I am sure we will 
occasionally have differing views about others. I will discuss 
some of the issues that I believe are important in my statement 
today, and look forward to hearing Rep. Hutchinson's testimony 
and his responses to Committee members' questions.
    Drug abuse has become an increasingly serious problem in my 
State of Vermont. Indeed, although Vermont has historically had 
one of the lowest crime rates in the nation, its crime rate 
rose 5 percent last year as the national rate held steady, with 
drug crimes increasing by 7 percent. Recent estimates show that 
heroin use in Vermont has doubled in just the past three years, 
and the number of people seeking drug treatment has risen even 
more rapidly. The average age of a first-time heroin user 
dropped from 27 to 17 during the 1990s, signaling a sharp rise 
in teenage drug abuse.
    Earlier this year, Christal Jones, a 16-year-old girl from 
Burlington, was murdered in New York City. According to news 
reports, she was recruited in Burlington to move to New York 
and become part of a prostitution ring, so she could get money 
to feed her heroin habit. When she died, drugs were found in 
her body, although they were not the cause of her death. 
Christal Jones' tragedy apparently is not unique - as many as a 
dozen Vermont girls may have been involved in this New York 
ring. And since her death, others have come forward to say that 
teenage girls in Burlington are prostituting themselves to get 
money to buy heroin.
    In looking at the drug problems facing Vermont and all of 
our States, it seems clear that there is a shortage of drug 
treatment. In response to that shortage, Senator Hatch and I 
have joined together with a bipartisan coalition of Senators on 
this Committee to introduce S. 304, the Drug Abuse Education, 
Prevention, and Treatment Act. Senator Hatch and I agree that 
as important as law enforcement is in battling drug abuse, it 
cannot solve our drug problems alone. This bill would provide 
millions of dollars for my State and all 50 States for programs 
to offer treatment for people addicted to heroin and other 
drugs and to prevent people from using illegal drugs in the 
first place. The legislation provides Federal funding 
specifically directed to drug treatment in rural States like 
Vermont, residential treatment centers for mothers, drug 
treatment programs for juveniles, and drug courts for juvenile 
and adult offenders. It also includes funding for drug 
treatment programs in prisons and jails, to help break the 
cycle of recidivism that so often accompanies drug-related 
crime.
    Donnie Marshall, whom you would be succeeding as head of 
the DEA, testified before this Committee in March that 
treatment and prevention efforts play a vital role in assisting 
law enforcement. I hope that you will take a similar view and 
offer your support for the proposal that Senator Hatch and I 
have made.
    In addition to my interest in placing a higher Federal 
priority on drug treatment, I have a number of other concerns 
about our current drug policies. First, I am increasingly 
skeptical about the need for and fairness of mandatory minimum 
sentences. I am pleased that we have not imposed mandatory 
minimums in S. 304, and I hope that we can begin to look at 
amending existing law to reduce our use of them there. A 1997 
study by the RAND Corporation of mandatory minimum drug 
sentences found that ``mandatory minimums are not justifiable 
on the basis of cost effectiveness at reducing cocaine 
consumption, cocaine expenditures, or drug-related crime.'' 
Despite this study and the mounting evidence of prison 
overcrowding we have seen in the ensuing years, legislators 
continue to propose additional mandatory minimums. I know that 
Rep. Hutchinson has expressed some hesitancy about expanding 
mandatory minimums, and I hope we can work together on this 
issue.
    The nominee has also expressed concerns about the 
sentencing disparity between those convicted of offenses 
involving crack and powder cocaine. Current Federal sentencing 
guidelines treat one gram of crack cocaine and 100 grams of 
powder cocaine equally for purposes of determining sentences. 
The U.S. Sentencing Commission has previously recommended 
equalizing these penalties by reducing the mandatory minimum 
penalties that currently apply to crack offenses. 
Unfortunately, Congress has not followed that recommendation. 
Finding a fair solution to this problem has been stalled by 
concerns that addressing this issue is too politically 
perilous--this Congress should overcome those fears and solve 
this discrepancy.
    Finally, I am concerned about how Federal law enforcement 
will address the tension between Federal power and States' 
rights in those States that have adopted laws permitting 
marijuana to be used for medicinal purposes. The Supreme Court 
recently decided in U.S. v. Oakland Cannabis Buyers' 
Cooperative that there is no medical necessity defense under 
the Controlled Substances Act, at least for the manufacture and 
distribution of marijuana. This decision has created a conflict 
in those States with medical marijuana laws, as--Federal law 
criminalizes conduct condoned under State law. Although I have 
not endorsed those medical marijuana initiatives, I am curious 
as to what balance our law enforcement officials will strike 
between our Federal drug laws and our commitment to State 
sovereignty, and I would appreciate hearing any thoughts our 
nominee may have on this question.

STATEMENT OF HON. ORRIN G. HATCH, A U.S. SENATOR FROM THE STATE 
                            OF UTAH

    Senator Hatch. Thank you so much, Senator Leahy.
    I certainly join with Senator Leahy in welcoming 
Congressman Hutchinson, his wife, and his family here today. We 
are very proud of you. You are good people, and we are grateful 
that you are willing to serve in this capacity.
    Earlier this year, President Bush announced that his 
administration will ``wage an all-out effort to reduce illegal 
drug use in America.'' Considering the growing amount of 
illicit drugs flooding into America each year and the 
increasing pervasiveness of drug use among our youth, I welcome 
President Bush's commitment. And today we will consider the 
nomination of a person who, as Administrator of the Drug 
Enforcement Administration, will help spearhead the President's 
efforts in this regard.
    I want to begin by taking a moment to thank the outgoing 
DEA Administrator, Donnie Marshall, for his service to this 
country. In the course of his distinguished 32-year career with 
the DEA, he rose from special agent to the highest position in 
the agency. Countless times he made himself available to this 
committee for hearings, and under his direction, the DEA played 
a helpful role in our successful effort to pass meaningful drug 
legislation. So, while I know Mr. Marshall is not here today, I 
want him to know how appreciative we are of his service to our 
country.
    Congressman Hutchinson, in my view, the President has 
picked the right person to succeed Administrator Marshall.
    DEA needs a dynamic, innovative, and experienced leader, 
and I am confident that, Congressman Hutchinson, your past 
experiences prosecuting drug crimes as a United States Attorney 
and formulating drug policy as a Congressman have prepared you, 
and prepared you well, to take the helm of the DEA. I applaud 
President Bush for focusing intently on this crucial issue and 
for his excellent choices of nominees to head America's two 
most important anti-drug offices, the DEA and ONDCP.
    The epidemic of illegal drug use in this country remains 
one of our most urgent priorities. I believe all of us here 
today will agree that we need a comprehensive strategy 
embracing both demand and supply reduction in our struggle 
against drug abuse. I have said repeatedly that the time has 
come to increase the resources we devote to preventing people 
from using drugs in the first place and to breaking the cycle 
of addiction for those whose lives are devastated by these 
circumstances. This is a bipartisan view, which I am pleased to 
say is shared by our President and by our chairman of this 
committee, Senator Leahy.
    To address this deficit in demand reduction, earlier this 
year I was joined by Senators Leahy, Biden, DeWine, Thurmond, 
and Feinstein in introducing S. 304, the Drug Abuse Education, 
Prevention, and Treatment Act of 2001. Since its introduction, 
S. 304 has received strong widespread support from Federal and 
State law enforcement agencies, prevention and treatment 
entities, and community groups. What has brought these groups 
together? The realization that this legislation will ultimately 
help to cut supply by reducing the demand for drugs by 
preventing our youth from using drugs in the first place and by 
treating those who are the most consistent and addicted users.
    However, let there be no misunderstanding of our intent 
with this legislation. While we need to shore up the resources 
dedicated to prevention and treatment, we remain committed to 
the necessary and integral role law enforcement plays in 
combatting drug use.
    Congressman Hutchinson, I know you are acutely aware of the 
enormity of this problem, this drug problem that our Nation 
faces. In my opinion, the previous administration lost ground 
primarily because it failed to make the issue of drug use a 
national priority.
    All Americans should be encouraged that this administration 
will correct this mistake. The President has taken a fresh look 
at how to lower drug use in America and is ready to employ 
effective law enforcement strategies supported by education, 
prevention, and treatment programs that are science-based and 
have been proven effective.
    Congressman Hutchinson, I know that you share my concerns 
and all of our concerns up here, and I am interested in your 
thoughts on these issues. I commend Chairman Leahy for holding 
this very important confirmation hearing, and I urge him to 
schedule in the near future a hearing for John Walters, the 
nominee for Director of the Office of National Drug Control 
Policy. It is important that the DEA and the ONDCP have 
effective leadership, especially now that we are heading into 
this appropriations season. Once the top positions of both the 
DEA and ONDCP have been filled, we can all begin to work 
together to effect real change that will benefit all Americans.
    Let me just say that I can only be here part of the time 
because of the markup in the Finance Committee and the 
reorganization of the Finance Committee, so I will have to 
leave. But I will try and get back as much as I can. But I 
certainly respect you very, very much. I think we all do. And 
we look forward to working closely with you and helping you 
every step of the way. And I believe you will make a tremendous 
difference in this country and I look forward to working with 
you.
    Thank you, Mr. Chairman.
    [The prepared statement of Senator Hatch follows:]

Statement of Hon. Orrin G. Hatch, a U.S. Senator from the State of Utah

    I'd like to join Senator Leahy in welcoming Congressman 
Hutchinson here today. Earlier this year, President Bush 
announced that his Administration will ``wag[e] an all-out 
effort to reduce illegal drug use in America.'' Considering the 
growing amount of illicit drugs flooding into America each year 
and the increasing pervasiveness of drug use among our youth, I 
welcome President Bush's commitment. And today we will consider 
the nomination of a person who, as Administrator of the Drug 
Enforcement Administration, will help spearhead the President's 
effort.
    I want to begin by taking a moment to thank the outgoing 
DEA Administrator, Donnie Marshall, for his service to this 
country. In the course of his distinguished 32 year career with 
the DEA, he rose from special agent to the highest position in 
the agency. As Administrator, he was committed to his agency's 
mission, and what is more, he took a personal interest in 
working to educate our youth about the dangers of drugs. 
Countless times he made himself available to this Committee for 
hearings, and under his direction, the DEA played a helpful 
role in our successful effort to pass meaningful drug 
legislation. So, while I know Mr. Marshall is not here today, I 
want him to know how appreciative we are of his service.
    Congressman Hutchinson, in my view, the President has 
picked just the right person to succeed Administrator Marshall.
    DEA needs a dynamic, innovative, and experienced leader, 
and I am confident that your past experiences prosecuting drug 
crimes as a United States Attorney and formulating drug policy 
as a Congressman have prepared you well to take the helm of the 
DEA. I applaud President Bush for focusing intently on this 
crucial issue and for his excellent choices of nominees to head 
America's two most important anti-drug offices, the DEA and 
ONDCP.
    The epidemic of illegal drug use in this country remains 
one of our most urgent priorities. I believe all of us here 
today will agree that we need a comprehensive strategy 
embracing both demand and supply reduction in our struggle 
against drug abuse. I have said repeatedly that the time has 
come to increase the resources we devote to preventing people 
from using drugs in the first place and to breaking the cycle 
of addiction for those whose lives are devastated by these 
substances. This is a bipartisan view, which I am pleased to 
say is shared by our President and by my colleague, Chairman 
Leahy.
    To address this deficit in demand reduction, earlier this 
year I was joined by Senators Leahy, Biden, DeWine, Thurmond, 
and Feinstein in introducing S. 304, the Drug Abuse Education, 
Prevention, and Treatment Act of 2001. Since introduction, S. 
304 has received strong widespread support from federal and 
State law enforcement agencies, prevention and treatment 
entities, and community groups. What has brought these groups 
together? The realization that this legislation will ultimately 
help to cut supply by reducing the demand for drugs by 
preventing our youth from using drugs in the first place and by 
treating those who are the most consistent and addicted users.
    However, let there be no misunderstanding of our intent 
with this legislation. While we need to shore up the resources 
dedicated to prevention and treatment, we remain committed to 
the necessary and integral role law enforcement plays in 
combating drug use. The DEA has a long, distinguished history 
of protecting America's citizens from the destructive drugs 
sold by traffickers and the attendant violence. Particularly in 
today's world, where drug trafficking is an international, 
multibillion dollar business, DEA's cooperative working 
agreements with foreign source and transit countries are 
essential in preventing illegal drugs from being smuggled into 
the United States. Moreover, the DEA provides needed training 
and support to State and local law enforcement agencies in the 
investigation of drug trafficking and manufacturing cases. For 
example, DEA plays a vital role in methamphetamine lab 
detection and cleanup. Without the DEA's assistance, State and 
local law enforcement agencies would lack the knowledge and 
resources necessary to investigate and cleanup methamphetamine 
labs safely.
    Congressman Hutchinson, I know you are acutely aware of the 
enormity of the drug problem our country faces. According to 
national surveys, since 1990, the number of first time users of 
marijuana has increased by 63 percent, of cocaine by 37 
percent, of hallucinogens, including ecstasy, by 91 percent, 
and of stimulants by 165 percent. The use by teens of so-called 
``designer drugs,'' such as Ecstasy and GHB, is soaring. Last 
year, annual use of ecstasy among 10th and 12th graders rose 
sharply, an increase of 33 percent and 55 percent respectively. 
It is simply shocking that by the time of graduation, over 50 
percent of our youth have used an illicit drug.
    These figures are especially frustrating when one considers 
that from 1980 to 1992, we had made significant progress in 
curbing drug use. For example, between 1985 and 1992, there was 
a reduction of almost 80 percent in cocaine use. In my opinion, 
the previous Administration lost ground primarily because it 
failed to make the issue of drug use a national priority.
    All Americans should be encouraged that this Administration 
will correct that mistake. The President has taken a fresh look 
at how to lower drug use in America and is ready to employ 
effective law enforcement strategies supported by education, 
prevention, and treatment programs that are science-based and 
have been proven effective. I agree with the President that if 
we focus more of America's attention, energy and resources on 
the problem of drug abuse, we can make real progress.
    Congressman Hutchinson, I know that you share my concerns, 
and I am interested in your thoughts on these issues. I commend 
Chairman Leahy for holding this very important confirmation 
hearing, and I urge him to schedule in the near future a 
hearing for John Walters, the nominee for Director of the 
Office of National Drug Control Policy. It is important that 
the DEA and ONDCP have effective leadership, especially now 
that we are heading into the appropriations season. Once the 
top positions at both the DEA and ONDCP have been filled, we 
can all begin to work together to effect real change that will 
benefit all Americans.

    Chairman Leahy. Thank you.
    Just so that the nominee can hear all the nice things that 
would probably be said at his funeral, for those who have 
suggested that that is what this hearing might be, because 
Congressman Hutchinson and I were on opposite sides during a 
major event in the Congress, the impeachment trial in the 
Senate, where he was named prosecutor and I was one of the, for 
want of a better word, defense counsel. The two of us handled a 
number of the depositions together. I would note for the record 
that throughout that time, notwithstanding the fact we were on 
opposite sides, Congressman Hutchinson's word was gold with me. 
He never broke his word. He never showed anything but the 
highest integrity and the highest standards of the Congress.
    But to continue with the statements, I have to assume that 
the next person to speak, the senior Senator from Arkansas, is 
in favor of the nominee, although I have not asked him. So I 
would ask Congressman Hutchinson's brother, the Senator from 
Arkansas, Senator Tim Hutchinson, to speak. Go ahead, sir.

STATEMENT OF HON. TIM HUTCHINSON, A U.S. SENATOR FROM THE STATE 
                          OF ARKANSAS

    Senator Hutchinson. Thank you, Mr. Chairman, and I want to 
thank you, after our reorganization, for so expeditiously 
scheduling the confirmation hearing for Asa. And thank you for 
the opportunity to say a few words of introduction.
    I know Senator Lincoln and I have during the Clinton 
administration years had lots of opportunities to introduce 
Arkansans who were being nominated for various positions, and 
it was always an honor to do that. But this is very special to 
be able to introduce not only a great Congressman from Arkansas 
but my brother, and I want to say, Senator Biden and Senator 
Feingold, I have resisted enormous constituent pressure from 
Arkansans who have urged me to put a hold on his nomination and 
do everything I could to block it.
    [Laughter.]
    Senator Hutchinson. Because they are going to miss him in 
the 3rd District. It is a great honor and it is a proud day for 
the State of Arkansas, and it is especially a proud day for me.
    From the introductory opening statements, I know that the 
committee is already familiar with Asa professionally. You know 
his work as United States Attorney, and he was a distinguished 
United States Attorney and did a wonderful job and held the 
respect of the FBI and the DEA and all of the law enforcement 
agencies with which he worked in that position and his 
familiarity with the drug issue in our country and our society 
because of is role as United States Attorney.
    I know you are familiar with his work in Congress, not only 
as a fair Impeachment Manager but as somebody who on the 
Judiciary Committee in the House has been very, very involved 
in this issue and has shown his concern not only through 
legislation but through his travels, through his work on the 
task force in the House on this issue.
    So let me just speak a little bit about some of his 
personal qualities, things that I know, not just as the senior 
Senator from Arkansas but as Asa's brother.
    I can assure you that he is going to be aggressive and 
hard-working and tireless in this job. Every position Asa has 
ever held, every position, every activity he has been involved 
in, he has brought the quality of aggressiveness, a great work 
ethic, and just tireless. And I think that you are going to see 
that, and I think that is the kind of person that we need in 
this position.
    Let me also say that he brings the quality of being ale to 
unify people, and that is something that in the effort on the 
drug issue we desperately need, because there are so many 
competing viewpoints, so many varying ideas. And Asa has always 
had the capacity to bring those with varying viewpoints to find 
common ground, to find common interests, and be able to bring 
people in a spirit of cooperation and to get something 
accomplished for the common good.
    Let me also say that Asa will bring a spirit of 
fearlessness. In his role as U.S. Attorney, he was very hands-
on, he was very engaged, and there were a lot of some high-
profile cases. But he was not just someone who worked in the 
courtroom, though he is a great courtroom attorney, but he was 
out on the front lines. And in the role that he is about to 
assume, the quality of fearlessness is one I think that is a 
great attribute.
    And, finally, I have found Asa throughout his life to be 
someone who is compassionate and someone who is passionate. And 
I have been asked repeatedly by people in Arkansas why, why 
would someone leave a position in the U.S. House of 
Representatives to direct the Drug Enforcement Administration, 
an oftentimes thankless job. And I think the answer is that he 
is compassionate and he knows the price that America has paid 
for illegal drugs, and he knows the impact that it has not only 
upon our country but upon families and individuals, and he is 
very passionate about doing something about it. So I am very, 
very pleased and proud to be able to support, to endorse, and 
to introduce my brother today.
    Chairman Leahy. Thank you very much, Senator Hutchinson.
    Senator Lincoln, we are always delighted to have you here. 
Please go ahead.

 STATEMENT OF HON. BLANCHE L. LINCOLN, A U.S. SENATOR FROM THE 
                       STATE OF ARKANSAS

    Senator Lincoln. Thank you, Mr. Chairman. It is with great 
pleasure that I am here this morning to introduce my friend and 
colleague in the Arkansas congressional delegation, Congressman 
Asa Hutchinson. I haven't known Congressman Hutchinson for a 
lifetime, as the senior Senator from Arkansas has. And if I 
were Congressman Hutchinson, I would be a little nervous if 
three of my siblings were here who could tell incredibly 
colorful stories they could tell of our growing up.
    Chairman Leahy. That is in the confidential and classified 
part of the hearing record.
    [Laughter.]
    Senator Lincoln. But I certainly know that Senator 
Hutchinson has been very supportive of his brother, and that is 
a great thing for us to see.
    President Bush, obviously you all know, has nominated 
Congressman Hutchinson to head the Drug Enforcement 
Administration, and I don't believe that the President could 
have selected a more qualified individual for this position. 
Much of his background has been described, but as a Federal 
prosecutor, Congressman Hutchinson observed firsthand the 
effects of Federal drug policy on our law enforcement system.
    As a Member of Congress, he has continued his commitment to 
anti-drug efforts, holding field hearings to address the 
methamphetamine explosion, which has been devastating to our 
State in Arkansas, securing funding for local law enforcement, 
and supporting measures to stop the flow of drugs into the 
United States.
    But Congressman Hutchinson is much more than a one-note 
drug warrior. He has a keen appreciation of the effects of drug 
policy on people's lives, as his brother, Senator Hutchinson, 
has described, and has a great passion in wanting to do 
something about that effect on individuals' lives, especially 
our young people.
    He understands that not all drug problems should be 
addressed through prosecution and punishment. They are also a 
concern for our communities, for our neighborhoods, and for our 
families. And to that end, Congressman Hutchinson is committed 
to a balanced approach to the drug problem that includes 
education and treatment. He supports drug courts as an 
alternative sentencing method for first- and second-time non-
violent offenders. He has been a strong advocate of community 
involvement to educate our children about the dangers of drugs. 
He has been one of the foremost advocates of social work 
research to address the social dimensions of substance abuse, 
such as domestic violence, poverty, and broken families.
    As a U.S. Senator, I have enjoyed working with Congressman 
Hutchinson and his staff on a number of issues important to our 
State in Arkansas, and I am confident that he will bring to 
this position at the Drug Enforcement Administration the same 
diligence, foresight, integrity, and passion, as was mentioned 
before, that he has brought to his service in the U.S. 
Congress.
    So as a fellow Arkansan, I am very proud to be here, Mr. 
Chairman and members of this committee, and I am happy to 
support his nomination to this distinguished position.
    Thank you for allowing me to share with the committee this 
morning.
    Chairman Leahy. Thank you very much.
    We are also honored and pleased to have before the 
committee Congressman John Conyers. Congressman Conyers is the 
ranking member of the House Judiciary Committee on which 
Congress Hutchinson serves, and he knows him well from the 
other side of the aisle, and he put together an extraordinary 
letter signed by him and all Democratic members of the House 
Judiciary Committee endorsing Congressman Hutchinson. It is 
either the case that they think the world of him, or they want 
him out of town.
    [Laughter.]
    Chairman Leahy. I am not sure which, but I suspect it is 
because they think highly of him, and, Congressman Conyers, you 
honor us by being here, and I appreciate your being here, sir.
    Senator Lincoln. Mr. Chairman, excuse me. May I just 
apologize and excuse myself. I have the same markup in the 
Finance Committee.
    Chairman Leahy. I understand. And I should mention, both 
you and Senator Hutchinson have other commitments, and please 
feel free to leave.
    Senator Lincoln. Thank you.

 STATEMENT OF HON. JOHN CONYERS, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF MICHIGAN

    Representative Conyers. Thank you very much, Mr. Chairman. 
I am delighted to see all my friends here today: Senator 
DeWine, former Chairman Biden, Russ Feingold, and, of course, 
yourself.
    I almost got derailed as I listened to Asa's brother, who 
raised the question why should anyone want to leave Congress. 
Well, I got about 105 reasons why anybody should want to leave 
Congress without having any appointment in store. But I 
digress.
    [Laughter.]
    Representative Conyers. I come here representing in an 
unusual way my colleagues on the Democratic side of the 
Judiciary Committee just to let you know, as our letter 
indicates, that we are unusually--it is unusual that we bring 
this level of support to a nominee not from our administration 
and not from our party.
    I think I know the reason why. This is the case of another 
charming Arkansan coming to Washington.
    [Laughter.]
    Representative Conyers. I mean, here we go again. I don't 
know what they drink down there, but this is what we are in 
for. This is the way it goes from that State. We all like him a 
lot. We have fought a lot. But, on the other hand, he has 
joined with us on the violence against women issue, on the 
questions of juvenile justice. On health care issues we have 
enjoyed his support, and on racial profiling legislation, Asa 
Hutchinson has been there with us.
    The reason that I want to invest my credibility in his 
nomination is that he is going to be able to bring the biggest 
issue that divides us on how we fight the scourge of drugs in 
this country by raising the level of discussion of whether it 
is to be increased punishment, mandatory sentences, lock them 
up and throw away the key, or whether we will turn to sane 
methods of prevention and treatment. And it is in that hope for 
that kind of discussion and leadership, I am willing to bank on 
Asa Hutchinson as our next Drug Enforcement Administrator.
    Now, my chief of staff, Julian Epstein, had written pages 
and pages of laudatory comments which I will put in the record, 
and let us all get on with the other issues of the day. But 
thank you for inviting me here.
    Chairman Leahy. Thank you.
    Senator Biden. Good to see you, John.
    Chairman Leahy. It is always good to have you here, as you 
know, and the members of this committee have worked with you 
over the years, and we appreciate your being here.
    I also understand the House schedule is such that you are 
going to have to go back, so I appreciate your being here.
    Representative Conyers. Thanks.
    Chairman Leahy. I would call the nominee forward.
    Would you raise your right hand? Do you solemnly swear or 
affirm that the testimony you are about to give will be the 
truth, the whole truth, and nothing but the truth?
    Representative Hutchinson. I do.
    Chairman Leahy. Please sit down, and I wonder if you might 
be kind enough to introduce any members of the family who are 
here.

 STATEMENT OF HON. ASA HUTCHINSON, OF ARKANSAS, NOMINEE TO BE 
      ADMINISTRATOR OF THE DRUG ENFORCEMENT ADMINISTRATION

    Representative Hutchinson. I would be delighted to. I have 
with me my wonderful wife, Susan--go ahead and stand, Susan--
and then my daughter, Sarah, who lives in the Washington, D.C., 
area, and her husband, Dave Wengel. And I might also say, 
Senator, that I have my son, Asa, III, who is a lawyer in North 
Little Rock, and his wife, Holli; my grandson, same age as 
yours, I think, or close to it, Asa IV; and John Paul, and 
Seth. And I don't want to neglect any of them.
    Chairman Leahy. Well, you know, the transcript becomes part 
of also the family archives, I am sure, so they should all be 
mentioned.
    Go ahead. The floor is yours.
    Representative Hutchinson. Thank you, Chairman Leahy, 
Senator Biden, Senator Feingold, Senator DeWine. I thank each 
of your for the courtesies that you have extended to me as a 
committee during the course of this nomination process. I 
particularly want to express appreciation to Chairman Leahy and 
Senator Hatch for their very generous comments this morning.
    Chairman Leahy, if I might, it would have been easy for you 
to yield to some of those who expected a critical view of my 
nomination because of previous controversies, which found us on 
different sides. But I want to thank you personally for taking 
a different approach and for seeing my nomination as an 
opportunity to demonstrate to the American people that, despite 
any differences that might exist, we can be harmony on one of 
the most critical problems that faces our Nation.
    I also want to thank Senator Hutchinson, Tim, and Senator 
Lincoln, Blanche--we go by first names in Arkansas--for their 
support and confidence in my nomination. I am gratified that my 
colleagues in Arkansas are excited and supportive of this 
nomination and this challenge that I face. It meant a great 
deal to me to have John Conyers, my colleague on the Judiciary 
Committee, come over here today and his colleagues expressing 
support for my nomination. Probably one of the most gratifying 
things that has happened to me in Congress is when people that 
you fight with and disagree with sometimes but yet you can see 
through that and see someone's heart. So I am grateful for his 
testimony today.
    I want to introduce Susan, but I want to say a special word 
that Susan, my wife, has never failed me to join--with a smile, 
I might add--as I seem always to choose the road less traveled 
by in life. And now I believe that we are embarking on a noble 
crusade for the hearts and minds of a generation. And it is 
good to have Susan travel with me on this road.
    I will be gratified to have the opportunity to work in a 
Justice Department led by John Ashcroft. I think he has set a 
good example in the Department, and I look forward to working 
with him, and I am grateful for his support.
    Most importantly, it is an honor to be named by President 
Bush to lead this effort as head of the Drug Enforcement 
Administration, if confirmed, and I am grateful to the 
President for the nomination. But, more significantly, I am 
grateful for what I see as his heartfelt desire to strengthen 
the American character by reducing the Nation's dependence on 
drugs. This is accomplished in part through vigorous 
enforcement of our laws, which I hope to be engaged in, but 
there is more. It is also important to focus on educating our 
youth for the best life choices and the rehabilitation of those 
who have become addicted to drugs. And I fully support the 
President's balanced approach to the problem of drug abuse.
    As everyone in this room knows, it is a high privilege for 
me to serve in Congress. And it is a distinct honor 
particularly to represent the people of the 3rd District that 
have sent me to Congress three times. And people ask me, as Tim 
mentioned, why I would leave an institution I love in order to 
engage in an effort in which success is doubted and progress is 
hard to measure.
    The answer goes back to what I learned as United States 
Attorney in the 1980's. I learned that drug abuse destroys 
individuals, it shatters families, and it weakens the fabric of 
a community and a nation. But I also learned that there is 
hope, and hope that this Nation can offer that we can be 
effective in saving lives and rebuilding families and 
communities. Surely, from this conclusion I reached in the 
1980's, this is a noble purpose worthy of a great crusade. And 
I think it explains why I am willing to accept this 
responsibility.
    Finally, while I was United States Attorney, I learned 
about the extraordinary and dedicated men and women of the DEA. 
They put their lives on the line to make a positive difference 
for our Nation, and they deserve the support and praise of the 
American people for the great work that they do. I hope to 
provide leadership that is worthy of such dedication and 
sacrifice.
    Mr. Chairman, when I came to Congress, I continued my 
personal commitment in this arena by serving on the Speaker's 
Task Force for a Drug-Free America, and my oversight 
responsibility on the Judiciary Committee was very instructive 
to me. I chaired the oversight hearings on methamphetamine and 
club drug abuse in California and other States, and it gave me 
an appreciation for the risk our front-line officers take every 
day. In California, I was able to see the California drug court 
system. And drug courts impressed me as a very useful tool to 
provide intensive, long-term rehabilitation for non-violent 
drug abuse offenders. And I think that long-term rehabilitation 
is what it takes, particularly when you are looking at 
intensive drugs such as methamphetamine.
    But as a result of my work on the front-line as a Federal 
prosecutor, working with our drug agents in the field, and my 
legislative efforts as a Member of Congress, I think I bring 
experience to this noble cause. This experience includes 
prosecuting scores of drug cases, providing leadership in the 
area of cooperation between law enforcement agencies, and 
encouraging communities to develop anti-drug coalitions to 
encourage young people to make the correct life decisions.
    But I think this job is much more than experience. I pledge 
to bring my heart to this great crusade. My heart will reflect 
a passion for the law; it will reflect a compassion for those 
families struggling with this nightmare; and it will reflect a 
devotion to helping young people act upon the strength and not 
the weaknesses of their character.
    I want to emphasize that the work of this committee is 
critical to our anti-drug efforts. Your dedication, your 
counsel, and your leadership are essential to building an 
effective Federal team. And I pledge my cooperation and 
availability to this committee, and I look forward to working 
with you.
    Charles de Gaulle, the former leader of France, one said 
that France would not be true to herself if she was not engaged 
in some great enterprise. Well, it is my belief that America 
cannot be true to its own character without engaging our young 
people, our families, our communities, and our leaders in this 
great, just cause of reducing drug abuse.
    I thank you, Mr. Chairman, and I will yield to any 
questions.
    [The biographical information of Representative Hutchinson 
follows.]

[GRAPHIC] [TIFF OMITTED] T0047.001

[GRAPHIC] [TIFF OMITTED] T0047.002

[GRAPHIC] [TIFF OMITTED] T0047.003

[GRAPHIC] [TIFF OMITTED] T0047.004

[GRAPHIC] [TIFF OMITTED] T0047.005

[GRAPHIC] [TIFF OMITTED] T0047.006

[GRAPHIC] [TIFF OMITTED] T0047.007

[GRAPHIC] [TIFF OMITTED] T0047.008

[GRAPHIC] [TIFF OMITTED] T0047.009

[GRAPHIC] [TIFF OMITTED] T0047.010

[GRAPHIC] [TIFF OMITTED] T0047.011

[GRAPHIC] [TIFF OMITTED] T0047.012

[GRAPHIC] [TIFF OMITTED] T0047.013

[GRAPHIC] [TIFF OMITTED] T0047.014

[GRAPHIC] [TIFF OMITTED] T0047.015

[GRAPHIC] [TIFF OMITTED] T0047.016

[GRAPHIC] [TIFF OMITTED] T0047.017

[GRAPHIC] [TIFF OMITTED] T0047.018

[GRAPHIC] [TIFF OMITTED] T0047.019

[GRAPHIC] [TIFF OMITTED] T0047.020

[GRAPHIC] [TIFF OMITTED] T0047.021

[GRAPHIC] [TIFF OMITTED] T0047.022

[GRAPHIC] [TIFF OMITTED] T0047.023

[GRAPHIC] [TIFF OMITTED] T0047.024

[GRAPHIC] [TIFF OMITTED] T0047.025

[GRAPHIC] [TIFF OMITTED] T0047.026

[GRAPHIC] [TIFF OMITTED] T0047.027

[GRAPHIC] [TIFF OMITTED] T0047.028

[GRAPHIC] [TIFF OMITTED] T0047.029

[GRAPHIC] [TIFF OMITTED] T0047.030

[GRAPHIC] [TIFF OMITTED] T0047.031

[GRAPHIC] [TIFF OMITTED] T0047.032

[GRAPHIC] [TIFF OMITTED] T0047.033

[GRAPHIC] [TIFF OMITTED] T0047.034

    Chairman Leahy. Thank you, Congressman, and I appreciate 
and applaud your statement.
    As you know from our earlier discussions, Senator Hatch and 
I have introduced S. 304, the Drug Abuse Education, Prevention 
and Treatment Act. The bill we have introduced would devote 
substantial Federal funding to improving drug treatment and 
other demand reduction programs, as well as drug courts for 
adults and juveniles, drug treatment and testing for prisoners, 
and other programs.
    Now, I know as head of DEA your primary concern is law 
enforcement, but do you believe that improving drug treatment 
and prevention programs actually assists law enforcement?
    Representative Hutchinson. Yes, I do, Mr. Chairman, without 
any doubt whatsoever. I don't think there is anyone more than 
folks in law enforcement that understand we keep the finger in 
the dike and keep the dam from breaking, but it is ultimately 
education, prevention and treatment that is going to make 
ultimately the biggest difference in our society.
    So I applaud you, Chairman Leahy, for this legislation, as 
well as the others that have introduced this. I think that if 
you can find more money in the budget to put in treatment--and 
I noted trying to provide treatment for those in prison; I 
think that is a very important part of it. More education for 
our young people--I applaud you for that, and I know the 
Department is looking at that legislation and I wish you 
success as you try to increase funding for the demand side.
    Chairman Leahy. During floor debate in the House last year, 
you said ``We should not extraordinarily expand mandatory 
minimums. I think that moves us in the wrong direction.'' I 
have actually voted for some mandatory minimums in the past, 
and some of them I now look at and question whether I voted the 
right way.
    I have severe reservations about the usefulness and the 
effects of many of the mandatory minimum sentences Congress has 
passed over the past few decades. A lot of the Federal judges, 
as you know, have complained openly about this.
    So I might ask you this: under what circumstances do you 
think mandatory minimums are helpful to law enforcement, but 
are there also mandatory minimum sentences under current law 
that we ought to look at possibly to change?
    Representative Hutchinson. Well, Mr. Chairman, I think 
mandatory minimums reflect the concern of society for a 
particular problem. Primarily, they are directed at the drug 
offenses and the gun offenses, and I think that the mandatory 
minimums have been helpful in reducing violent crime in our 
country.
    I think Congress was very wise in coming back--was it in 
1994--in creating the safety valve so that under certain 
circumstances the judge can revert to the Sentencing Guidelines 
rather than to the mandatory minimum sentence. There is always 
those extraordinary circumstances that it is appropriate. As I 
stated in the committee and on the floor, I have been reluctant 
to expand mandatory minimums because I think they are directed 
at the serious problems.
    You asked about the future, and I think we have to be 
careful, recognizing that you don't want to overly tie the 
hands of the judge. But this is a way that Congress sometimes 
finds to express the outrage of a community.
    Ecstasy, for example, is an extraordinary problem and if 
you offered mandatory minimums for someone who was selling 
1,000 pills of Ecstasy at an event that they advertised as 
alcohol- and drug-free, I think it would probably be 
appropriate. I mean, it would be hard for me to say that is not 
an appropriate discouragement for that activity and you have to 
assess a firm penalty.
    Chairman Leahy. Do you think that possibly with the number 
of mandatory minimums on the books that there will be a time 
that Congress would do well to go back and review them all?
    Representative Hutchinson. I would have no problem in 
Congress reviewing the mandatory minimums, and that is not pre-
judging any outcome, but I think it is appropriate whenever you 
have that type of a mandatory sentence that takes it out of the 
discretion of a judge that from time to time Congress review 
that.
    Again, my policy has been trying to be hesitant about 
expanding those. I think that in the drug arena and in the 
violent crime arena, they have been very effective, but I would 
certainly support a review of it by Congress.
    Chairman Leahy. A number of States, including fairly 
conservative States like Arizona, have adopted initiatives in 
recent years legalizing the use of marijuana for medical 
purposes. The Supreme Court recently affirmed the Federal 
Government's power under the Controlled Substances Act to 
prosecute those who distribute or manufacture marijuana, 
including those who distribute it to people who are ill in the 
States that have voted to allow it.
    I have not been one supporting the legalization of 
marijuana and I have not taken any position on these 
initiatives the States have passed. It is not something Vermont 
has taken up and has left that to other States to determine 
what they want to do, but I am concerned about the tension 
between the State and Federal authority in those States.
    There are a lot of drug cases that Federal agents and 
prosecutors can bring, and you were a prosecutor, too, and you 
understand the discretionary part. Do you think the Federal 
Government should make it a priority to prosecute people who 
are distributing marijuana to ill people in those States that 
have voted to make it legal?
    Representative Hutchinson. Well, there is a tough tension 
that is there, Mr. Chairman, and you phrased the question as 
tough as it can be phrased. You are clearly a good former 
prosecutor.
    I think that the Supreme Court decision was correct because 
it affirmed Congress' discretion in designating marijuana as a 
Schedule I drug that has no legitimate medical purpose. I think 
we have to listen to the scientific and medical community. At 
this point, they have said that there is not any purpose from a 
medical standpoint for marijuana that cannot be satisfied by 
some other drug.
    So I think it is very important that we do not send the 
wrong signal from a Federal level to the young people, to the 
people in this State, or California or wherever, that marijuana 
use is acceptable practice. It is still illegal and it is 
harmful and there are many potential dangers, and the 
scientific community does not support the medical use of it. 
And so I think that as far as the enforcement policies, that is 
something that I want to work with the Attorney General on and 
develop an appropriate policy there reflecting those points.
    Chairman Leahy. In other words, you can't take a position 
today, and that is understandable, but let me urge this, and my 
time is up and I will wait for the next round. More States are 
going to do this and I think you and the Attorney General 
should start having some long talks with the attorneys general 
of those States that have done it because this could create a 
real problem between State and Federal relations. There are 
enough areas where you are going to have to cooperation in the 
drug war. I am not suggesting what the outcome should be, but 
this is something that I think should be fairly high up on your 
radar screen.
    Senator DeWine is also, like the two of us, a former 
prosecutor, and I will yield to Senator DeWine.
    Senator DeWine. Mr. Chairman, thank you very much. Let me 
ask that my opening statement be made a part of the record.
    Chairman Leahy. Without objection.
    [The prepared statement of Senator DeWine follows:]

  Statement of Hon. Mike DeWine, a U.S. Senator from the State of Ohio

    Mr. Chairman, thank you for holding this hearing today to 
consider the nomination of Representative Asa Hutchinson to be 
Administrator of the Drug Enforcement Agency.
    As you know, this position is vital in our fight against 
illegal drugs, and Representative Hutchinson is an excellent 
choice to head the Drug Enforcement Agency. During his time in 
Congress, he has shown great integrity and thoughtfulness in 
his work, gaining him the respect of colleagues on both sides 
of the aisle. Moreover, Representative Hutchinson understands 
that we must remain steadfast in the fight against drugs if we 
are to protect our children, restore our cities, and strengthen 
our families.
    Mr. Chairman, in our continuous fight against illicit drugs 
in this country, it is becoming increasingly clear that we need 
a balanced, comprehensive anti-drug strategy--a strategy that 
includes the elimination of both the demand for and supply of 
drugs, as well as adequate treatment for addicts and anti-drug 
education. I have long maintained that to be to be effective, 
our national drug control strategy must be a coordinated effort 
that directs resources and support among domestic law 
enforcement, international eradication, and interdiction 
efforts.
    As we know all too well, when drugs are cheap and 
plentiful, kids buy them and kids use them. More children today 
are using and experimenting with drugs--many, many more. 
According to the ``2000 Monitoring the Future Study,'' since 
1992

        <bullet> Overall drug use among 10<SUP>th</SUP> graders has 
        increased 53 percent;
        <bullet> Marijuana and Hashish use among 10<SUP>th</SUP> 
        graders has increased 88 percent;
        <bullet> Heroin use among 10<SUP>th</SUP> graders has increased 
        83 percent; and
        <bullet> Cocaine use among 10<SUP>th</SUP> graders has 
        increased 109 percent!

    These statistics represent an assault on our children, on 
our families--and on the future of our country. That's why I 
fought hard to include the reauthorization of the ``Safe and 
Drug-Free Schools and Communities Program'' in the education 
reform bill that we recently passed. This program is the 
primary federal source of drug and violence prevention efforts 
in 97 percent of America's schools. As a member of the ESEA 
conference committee, I will remain dedicated to keeping the 
reauthorization of this program in the final bill.
    In addition, I joined the Chairman and the Ranking Member 
in introducing the ``Drug Abuse Education, Prevention, and 
Treatment Act of 2001.'' This bill would help us maintain a 
balanced drug policy among demand, supply, and drug 
interdiction by increasing resources for prevention and 
treatment.
    Ultimately, Mr. Chairman, I believe we must protect our 
kids before the drug dealers get to them. That means we must 
get drugs out of our schools and communities, prevent them from 
ever entering our country, and maintain balance in our overall 
national anti-drug policy. I believe that Representative Asa 
Hutchinson can lead us on a solid path to these important 
goals.

    Senator DeWine. I will spare you all the nice things I was 
saying about you; you can read them in the official record.
    We welcome you here today, and I think this is a great 
nomination by the President. We are very happy about it.
    Representative Hutchinson. Thank you, Senator.
    Senator DeWine. I wonder if you could outline for me what 
you think DEA's role in the President's Andean initiative is 
going to be and how you see that part of the world, that very, 
very important, troubling part of the world.
    Representative Hutchinson. Well, as you have, Senator, I 
have traveled down there, looked at Colombia, but also the 
circumstances in Ecuador. They are concerned about a pour-over 
effect into that country, and I believe that it is a risk that 
we have to take in order to support a very old democracy in 
South America and make sure that it survives. I think we should 
not delude ourselves, but our efforts there hopefully will have 
some good side benefit for the drug supply in America. But we 
have to realize the primary impact is to support that 
democracy.
    In reference to the DEA's role, one of the probably not so 
greatly emphasized portions of the initiative is the criminal 
justice sector. And if we are going to have an impact on the 
supply of drugs coming in, we have got to put the major 
trafficking organizations in jail. That takes investigation.
    The DEA will be training, supporting better law enforcement 
efforts in Colombia, in Venezuela, in Peru, in the South 
American countries, in addition to making sure that they have 
quality prosecutors, law enforcement people that can get the 
job done. So we are backing them up. We are doing the training 
there, and that criminal justice sector is probably as 
important as any portion of the Andean initiative.
    Senator DeWine. Well, I am delighted to hear you say that 
because I think when we look at this whole battle of preserving 
democracies--certainly, Colombia is not an emerging democracy, 
but it is true with some of the emerging democracies that they 
do need help as well, and that it is the developing of that 
criminal justice system that actually does work and that gets 
results.
    The ability that we have as a country to train and the 
ability to share our ideas and our expertise, I think, is very, 
very valuable. You have a lot of that expertise at the DEA, and 
so I am delighted to see that you intend to do that.
    Another area I would just mention--and this is not directly 
under your portfolio in DEA, but I just think that as you will 
become one of the senior counselors to the President on drugs 
that I would just urge you to always keep the balance that you 
and I have talked about in the past with drug treatment, drug 
education, domestic law enforcement, and international 
interdiction.
    I think it is important that every one of us who has any 
input into this from the point of view of Congress, or in your 
case from the administration, weigh in heavily and make it 
clear to the country that this is what we have to do. It has to 
be a balanced approach.
    Representative Hutchinson. I agree completely, Senator 
DeWine, and you can be assured that I will support the 
President's intention to have a very balanced approach to our 
anti-drug effort.
    I have been delighted to know of the success and energy of 
the demand reduction section of the DEA. I believe that if you 
are talking about a law enforcement initiative, there is 
probably nothing more important than educating folks to obey 
the law and what the law is. The demand reduction section has 
been very effective in the DEA working with community 
coalitions, working to educate schools, administrators and 
teachers about the new wave of drugs coming in. So I think it 
is something that I intend to make sure is alive and well at 
the DEA, as well as our enforcement efforts.
    Senator DeWine. Let me just close with a question in regard 
to Haiti. Last year, it is estimated that about 15 percent of 
the drugs destined for the U.S. passed through Haiti as a 
transit point, and you and I the other day talked a little bit 
about this. I would just urge you to keep the few DEA agents 
that we do have down there, and I would be interested to get 
reports periodically on how they are doing.
    Representative Hutchinson. I would be happy to, and thank 
you for that counsel, Senator.
    Senator DeWine. Thank you. Thank you, Mr. Chairman.
    Chairman Leahy. Thank you.
    The former chairman of this committee, Senator Biden, has 
probably spent more time on the issue of illegal drugs and how 
to combat them than any other member of the committee, and I 
yield to Senator Biden.
    Senator Biden. Thank you very much, Mr. Chairman.
    Congressman I am for you, and I ask unanimous consent that 
my statement laying out my reasons why I support your 
nomination be placed in the record at this time.
    Chairman Leahy. Without objection.
    [The prepared statement of Senator Biden follows:]

 Statement of Hon. Joseph R. Biden, Jr., a U.S. Senator from the State 
                              of Delaware

    Today the Judiciary Committee considers the nomination of 
William Asa Hutchinson to head the United States Drug 
Enforcement Administration. I intend to support this 
nomination.
    Congressman Hutchinson is well known to all of us on this 
Committee not only because he has served in the House of 
Representatives where he has been a member of the Judiciary 
Committee, but also because he is the brother of our colleague 
Senator Tim Hutchinson.
    Asa Hutchinson has had an impressive legal career and is 
quite an adept lawyer. He was just 31 years old when he was 
appointed by President Reagan to be the U.S. Attorney for the 
Western District of Arkansas, making him the youngest federal 
prosecutor in the country at the time. He has also 
distinguished himself as a lawyer in the private sector.
    I am pleased to note that Congressman Hutchinson's 
nomination has been endorsed by the majority of his Democratic 
colleagues on the House Judiciary Committee and by the 
International Association of Chiefs of Police.
    The next head of the IDEA will have a great opportunity to 
influence the shape of our nation's response to illegal drugs - 
both domestically and internationally.
    I urge you, Congressman Hutchinson, to keep a number of 
important issues in mind as you consider what drug policy 
should look like in the future:
    First, we need to prove that we can walk and chew gum at 
the same time by passing S. 304, the Drug Abuse Education, 
Prevention and Treatment Act, a bill that I am working on with 
the Chairman, Senator Hatch, and several other members of this 
committee, which authorizes $2.7 billion for drug treatment and 
prevention programs over the next three years. I hope we can 
pass this bill out of Committee soon and I hope that we will 
have Congressman Hutchinson's support.
    Second, we have to deal effectively with the emergence of 
new "club drugs," particularly Ecstasy. Parents and kids are 
under the false impression that these drugs are "no big deal." 
We need to educate kids so that they know the risk involved 
with taking Ecstasy, what it can do to their bodies, their 
brains, their futures. Adults also need to be taught about this 
drug - what it looks like, the paraphernalia - pacifiers, water 
bottles, glow sticks, etc. - that go along with Ecstasy use, 
and what to do if they discover that someone they know is using 
it.
    Third, the United States must continue to stay engaged with 
Colombia. Last year, the United States made a major commitment 
to help Colombia and other Andean nations stem the production 
and trafficking of illicit drugs. We must continue this 
essential effort, not only in Colombia but with the other 
countries in the Andean region.
    Fourth, we must build on the new level of cooperation with 
the Mexican government. President Fox has recently extradited 
several Mexican nationals wanted in the United States on drug 
trafficking charges. This is both courageous and historic - and 
it should be commended. The Fox Administration has also 
acknowledged the corruption in its police forces and has 
signaled its willingness to work with the United States to 
bolster Mexican law enforcement.Fifth, we need to make sure 
that new antiaddiction medications such as buprenorphine are 
made available to those who need them. Senators Hatch, Levin, 
Moynihan, and I worked with IDEA agents and others last year to 
pass a law to create a new system that would allow select 
qualified doctors to prescribe certain pharmacotherapies from 
their offices rather than through a series of clinics on the 
periphery of the medical world. We need to make sure that this 
new system is given a chance to work so that we begin to close 
the "treatment gap" and also move drug treatment into the 
medical mainstream.
    I hope that we can work together on these and other issues. 
In drug policy, we tend to become overwhelmed with the enormity 
of the task ahead of us. We focus on the fact that we have 
nearly 15 million drug users in this country, four million of 
whom are hard-core addicts. But we lose sight of the fact that 
we have cut the number of drug users by almost half since 1979. 
And far too often we forget that this is our second wave of 
drug addiction in this country. We beat the first wave back in 
the 1880s, and I remain confident that we can beat this one 
too.
    Mr. Hutchinson, as I told you when me met last week, I 
intend to support your nomination. You have a tough job ahead 
of you, but I sincerely believe that you have what it takes to 
be a strong IDEA Administrator. I wish you the best of luck and 
I look forward to working closely with you on both domestic and 
international drug policy matters.

    Senator Biden. One of the things that you and I talked 
about is this notion about whether or not we are winning or 
losing in this effort to deal with the drug problem. We have a 
semantic disagreement we have not discussed, and that is I have 
never called it a war. I read your statement about your not 
wanting to have it referred to as a cancer, like the last drug 
director did, because you were concerned that it would appear 
as though we thought there wasn't a solution.
    The thing that worries me most after all these years, and 
every single year writing a national drug strategy--I am the 
guy who wrote the law, and it took 6 years to get it passed, 
setting up the drug director's office. When I was chairman of 
this committee, a previous administration wanted to merge the 
DEA with the FBI. I don't think it is an exaggeration to say my 
opposition to that played some role in it not being merged.
    My consistent fear has been that we will yield to the 
frustration that there is not much we can about this problem, 
and therefore why not ultimately legalize it. Where I have some 
concern about the States that have passed referenda for medical 
use or marijuana, I have less concern about the actual medical 
use than the message it sends.
    There are other substances, there are other drugs that can 
alleviate the pain for those who have debilitating and in many 
cases terminal illnesses. I don't want to quarrel about that 
now, but what I do worry about is I worry about this notion, 
whether it is marijuana or Ecstasy, or I might point out 
initially the club drugs, rohypnol and ketamine, or initially 
angel dust--I mean, I can go down the list, and initially we 
have tended to embrace every drug that has come forward as not 
being as harmful as other drugs.
    You may recall, because you were a Federal prosecutor at 
the time, the debate I had with the Carter administration and a 
gentleman who was the chief adviser to the Carter 
administration, a medical doctor, who came up to see me and 
asked me why I was ``picking on cocaine.'' Why was I picking on 
cocaine? To put it in perspective, the American Medical 
Association did not declare cocaine an addictive substance 
until the late 1980's. It was a constant battle.
    So the point I want to make is this: there is a frustration 
in dealing with this problem, and when we don't come up with 
the right answers and reduce the numbers of people who are 
consuming these drugs, the tendency is, out of frustration--
well-thought-out, like Former Secretary of State Shultz, a very 
fine man, and William Buckley and others, leading conservative 
voices, as well as liberal voices--Mayor Schmoke, a Rhodes 
scholar--talking about the legalization of drugs.
    I think we don't focus on the facts here. The facts are we 
have made great progress. In 1979, there were 25 million 
Americans regularly using and abusing controlled substances in 
America. That is down to 14.8 million. Years ago when I chaired 
this committee, there were 5.6 million hard-core addicts. That 
number is down to 4 million, still too many, but we have 
actually made some genuine progress.
    It seems to me we are right at the point--I making a 
statement, not asking a question here--it seems to me the whole 
point here is that we don't want to let ourselves get into this 
mind set that we can't do anything about it, and the key to me 
at this point is treatment. Treatment works, but it does not 
work unless we provide the funding for it.
    In the United States of America, nearly 769,000 people 
between the ages of 18 and 25 who need drug treatment can't get 
it. You show up at any municipal organization in the United 
States of America and walk and in say, I am a drug addict, I am 
out there committing crimes, I have committed 3 felonies in the 
last 4 weeks--by the way, they commit between 90 and 180 
felonies a year to sustain the habit, depending on what figure 
you take--help me. And they will say come back in 4, 6, 8, 10 
weeks, and 6 months in most major cities.
    So, Asa, it took me 4 years to get drug courts endorsed. 
Your endorsement of them is very helpful. The fellow we are 
about to bring in as the head of ONDCP does not share your 
view, unless he has a conversion at the moment of his 
confirmation hearing. Mr. Walters is a fine man. We have argued 
for 14 years about treatment.
    I hope that you will be willing not only to do the job of 
managing that vast department--I realize my time is up, Mr. 
Chairman--but I hope you will weigh in. And the reason it is 
important is you will be the head of DEA and you are viewed as 
a strong conservative voice. And that is the next stage here; 
we have got to move to treatment and availability of treatment 
on demand.
    That is why I didn't give my opening statement. I have no 
questions for you because I asked you all the questions I 
needed to ask you in our private meetings.
    Thank you, Mr. Chairman.
    Representative Hutchinson. Mr. Chairman, can I just respond 
real quickly and just express my appreciation to Senator Biden 
for his leadership?
    Chairman Leahy. Of course, you can.
    Representative Hutchinson. I think your leadership has made 
a difference, and I am grateful to you. I am particularly 
grateful about the hope you expressed to the American people as 
to the progress that we have made.
    You know, I perhaps could have been wiser in reference to 
my criticism of General McCaffrey on not using the word ``war'' 
because I didn't mean to get into a semantic battle.
    Senator Biden. It is not a big deal.
    Representative Hutchinson. What I believe is important, as 
you said, is that we send the right signals, that we express 
intensity. And so the way I express that intensity is talking 
about a great crusade, and I think that is good, strong 
language we need to use.
    And you indicated that the key is treatment. I agree that 
treatment is a critical element of this. I do believe that the 
law enforcement community forces people to treatment many times 
by making an arrest, and I have had that expressed to me many, 
many times. And so it all works together, and I appreciate 
again your leadership.
    Senator Biden. You ask any law enforcement officer in a 
rural community whether or not they would rather have two more 
officers or two serious treatment facilities that rural America 
can get to, where the use of drugs is increasing faster than in 
the inner-city. I bet you eight to one that you will find them 
saying, give me the treatment facilities.
    Chairman Leahy. Well, they would in Vermont. I know that.
    The Senator from Pennsylvania.
    Senator Specter. Thank you, Mr. Chairman.
    Congressman Hutchinson, I compliment you on your 
nomination. I know your record in the House of Representatives 
and I think it is an exemplary one. I appreciated the 
opportunity to talk to you when you came by for the informal 
visit and the extensive conversation we had at that time.
    A couple of points that I would like to make this morning 
really more for the record involve some items we talked about, 
and it picks up on what Senator Biden has talked about on 
rehabilitation. I came in at the very end of his questioning.
    I would renew my request formally to you at this time when 
you have the position officially to make a study as to the 
cost-effectiveness of the very substantial funds that the 
Federal Government is putting into the war against drugs. I 
will use the term ``war against drugs.'' We have to fight it at 
many, many levels.
    We are currently considering an appropriation for Colombia, 
close to $900 million, which would supplement the $1.3 billion 
from last year. As I said to you privately and at a hearing of 
the Foreign Operations Subcommittee, I have grave doubts about 
the value of that kind of a Federal expenditure.
    I am very much concerned about what happens to the 
government of Colombia and the people of Colombia, and they 
have had a very, very tough time, including the attack by the 
drug warlords on the supreme court of Colombia. But when we 
make an analysis as to where we ought to put U.S. dollars, it 
seems to me we do not get much for our money.
    I would like your analysis as to the expenditures which we 
have made in Colombia before the $1.3 billion and the efficacy 
of another large investment. Then I would also like your 
analysis as to where we ought to be putting our money on the 
supply side versus the so-called demand side.
    Interdiction, I think, is important, but how effective is 
it? When we put funding into limiting the growth of drugs in 
Colombia, what effect does it have beyond pushing drugs into 
Bolivia or Peru? I have made a number of trips into that area 
over the past two decades and still wonder if there is any 
value to our putting a lot of money into discouraging people in 
one country from growing drugs when it seems to move right into 
the next country. Then the issue comes up on the so-called 
demand side, where education, I believe, has worked and 
rehabilitation has a prospect.
    Let me give you a chance to respond as to your approach 
philosophically to the allocation of Federal funds on supply 
versus demand.
    Representative Hutchinson. Thank you, Senator Specter, and 
I did enjoy our discussion on that issue. I think in reference 
to Colombia and the investment in that region, I have supported 
it. I believe that it is important that we do support that 
democracy and their struggle there.
    I think it is certainly appropriate that Congress continue 
to look at the effectiveness of the money that we invest there. 
Are we getting a good return? Are we having proper 
accountability? I feel confident that the DEA role in the 
criminal justice sector will work well. I think that is a good 
investment.
    In reference to the supply versus demand side debate, I 
think we have to be careful about the debate itself. I think 
the question should be are we investing what we should be on 
the supply side, the law enforcement side. Are we taking care 
of folks there, protecting them against the dangers of going up 
against a methamphetamine group in a search warrant? On the 
demand side, are we investing enough in education?
    In both of them, we could probably invest as much as you 
could write a check for out of Congress because there is great 
need there, but the balance we should always be looking at. But 
I think they work together. I have been impressed with the 
letters that I have gotten in my initial phase here during the 
confirmation----
    Senator Specter. Congressman Hutchinson, I am going to 
interrupt you because my yellow light went on and I am about to 
be interrupted by the red light which goes on. So let me raise 
one other issue here again for the record, and it is something 
we discussed, and that is the issue of taking Cuba up on 
Castro's offer to cooperate with us on drug interdiction.
    There was a day when Castro was a real threat, when he had 
Soviet missiles in Cuba back in 1962 or when there was a 
problem about turning Latin America communistic, but I think 
those dangers have lost since past. I made a trip to Cuba 2 
years ago and had a talk with President Castro about many 
items--human rights, Lee Harvey Oswald, the Cuban Missile 
Crisis, and drugs.
    It seems to me that we ought to be using every facility we 
have as to intelligence and to drug interdiction without 
respect to the kinds of concerns we have had about Castro in 
the past. My red light is on, so I will stop, but that doesn't 
stop you from responding.
    Representative Hutchinson. Well, thank you, Senator 
Specter. I certainly think one of the great things about the 
DEA is that many countries, even when we have a philosophical 
difference of viewpoint, are willing to work together fighting 
drugs. Certainly, when you look at the Caribbean, we have a 
strong investment there to interdict, to stop the supply coming 
in.
    I don't, quite frankly, know as much as you do about our 
relationship with Cuba on that issue. That is something that 
the State Department will weigh in on, I am sure, but I will 
certainly take your views into consideration there.
    Senator Specter. Well, the State Department will weigh in, 
but the head of the Drug Enforcement Administration should 
weigh a little more on this issue on that point.
    Thank you. Thank you, Mr. Chairman.
    Chairman Leahy. Thank you, Senator Specter.
    Senator Feingold?
    Senator Feingold. Welcome, Congressman. I greatly admire 
your abilities. I congratulate you, and I know you have a 
longstanding commitment both as a Congressman and as U.S. 
Attorney to our Nation's fight against drugs. I very much look 
forward to working with you in your new position.
    As you know, the role of the DEA in drug interdiction 
efforts has been invaluable. I do think that the thousands of 
men and women of the DEA should be proud of their service to 
our country, but I believe that drug interdiction should be 
part of a strong multi-pronged approach to the fight against 
drugs.
    I believe that effective enforcement of our Nation's laws 
against the production, sale and distribution of drugs is 
essential, but I also believe that effective drug prevention 
and treatment is essential. In other words, and as almost every 
Senator on this committee has said, while we use enforcement 
tools to fight the supply side of the problem, we must also use 
prevention and treatment tools to fight demand.
    In the brief time I have, Congressman, I would like to ask 
you about a somewhat related issue, and that is the issue of 
racial profiling. As you and my colleagues know, both President 
Bush and Attorney General Ashcroft have strongly expressed 
their belief that racial profiling is wrong and should end in 
America.
    As you know, as well, your strong supporter, Representative 
Conyers, and I have introduced legislation to end racial 
profiling and we look forward to fruitful discussions with the 
administration on our bill. I am extremely pleased that you, 
too, have spoken out against racial profiling and supported the 
Federal Government taking a leadership role in combatting the 
practice, and I was delighted with your presence at our news 
conference where we introduced our bill. In fact, I think in 
this position you will have the opportunity to do just that, to 
combat this practice.
    As you know, many believe that our Nation's so-called war 
on drugs has resulted in or encouraged racial profiling by law 
enforcement officers. According to the May 1999 ACLU report 
entitled ``Driving While Black: Racial Profiling on our 
Nation's Highways,'' we know that, contrary to popular belief, 
drug use and distribution are not confined to racial and ethnic 
minorities. Indeed, five times as many whites use drugs.
    Nevertheless, the war on drugs since its inception has 
targeted racial and ethnic minorities. Through a program called 
Operation Pipeline, the DEA trained some 27,000 police officers 
in 48 States to use pretext stops to find drugs in vehicles, 
and introduced a racially biased drug courier profile.
    I understand that the DEA fortunately now claims that it no 
longer teaches racial profiling in its training courses. So I 
would ask you, if confirmed, what steps would you take to 
ensure that the DEA does not engage in racial profiling?
    Representative Hutchinson. Thank you, Senator Feingold, and 
I appreciate your leadership on the issue of racial profiling. 
And I do hope that Congress will respond to your leadership and 
to the President's statement that racial profiling should end.
    I think it is important that the Federal law enforcement 
agencies set the example for the States. The DEA has a major 
role to play in training and what I will do at the DEA--I know 
that we already have a policy that prohibits racial profiling 
and that needs to be--make sure that it is enforced, make sure 
that the training is done in conjunction with that. And if the 
Senate does confirm me, I will certainly go over there with 
that intent.
    Training is important. I would want to look at the training 
to make sure that as the DEA trains State and local law 
enforcement on how to do stops for those who are suspected of 
drug trafficking that there is not race used as--racial 
profiling used in that context.
    Senator Feingold. I really appreciate that because as we 
work carefully with the State and local law enforcement people 
on racial profiling, they do point out that the DEA sort of 
began the concept and the training on it. So that is a helpful 
statement.
    In fact, what steps would you take to address the fact that 
agents have trained State and local law enforcement officers to 
use racial profiling techniques in the past?
    Representative Hutchinson. Well, Senator Feingold, I have 
not studied Operation Pipeline in detail. I have looked at some 
of the reports that indicate that there was not racial 
profiling that was taught in that context. I know the ACLU has 
a different view on that and I don't know the nuances of it.
    All I can say is that as I go over there, I want to make 
sure that it does not happen and that not only we set the 
proper example as a Federal agency, but we make sure our 
training is consistent with our desire to end racial profiling.
    Senator Feingold. Thank you. Just a couple of other quick 
questions in relation to this.
    In June 1999, President Clinton signed an executive 
memorandum ordering all Federal agencies to collect data to 
determine if racial profiling is occurring. Each Federal agency 
was asked to develop a system for collecting data, and it is my 
understanding that the Bush administration has kept that 
executive memorandum in place.
    As DEA Administrator, would you encourage the Bush 
administration to continue with the previous administration's 
executive memorandum to collect data from Federal agencies?
    Representative Hutchinson. Well, Senator Feingold, that is 
a major part of the legislation that you have introduced along 
with others, and as a legislator I supported the need for 
statistics-gathering because I believe it is a good management 
tool. The only concern I had was in how some of those 
statistics might be used in litigation. It is a fair debate.
    I look forward in my new position, if confirmed, to work 
with the administration to develop appropriate policies in that 
regard. And so I understand the need and we hope that we can 
accomplish our common goal to end that problem.
    Senator Feingold. I appreciate that answer. Finally, I 
would just ask would you support releasing that data that comes 
in for public review?
    Representative Hutchinson. The releasing of the data that 
is used as a management tool?
    Senator Feingold. That is gathered with regard to the 
executive memorandum from President Clinton that so far the 
Bush administration has not rescinded.
    Representative Hutchinson. I need to look at the nuances of 
that. My reaction is always that we need to have openness in 
government, but we need to look at the details of that and the 
extent of the information that would be released.
    Senator Feingold. I would just ask, Mr. Chairman, if you 
could get back to me on that point in a reasonable time, I 
would really appreciate it. I congratulate you again, 
Congressman.
    Representative Hutchinson. Thank you, Senator.
    Chairman Leahy. In fact, the record, of course, will be 
kept open for questions and answers, and we would ask the 
nominee to respond to that as quickly as possible.
    I would also note just before we go to Senator Sessions 
that the committee--and we have the agreement of the ranking 
member for this--will hold a nomination hearing tomorrow 
afternoon on James Ziglar to be the Commissioner of INS. We 
were able to juggle around the schedule to do that. Otherwise, 
we would run into the problem of not getting it done prior to 
the August recess.
    The Senator from Alabama. I would note, Congressman 
Hutchinson, you are surrounded by former prosecutors.
    Senator Sessions?
    Senator Sessions. Thank you, Mr. Chairman, and it is a 
delight to see Congressman Hutchinson here. I have known him 
for a number of years. I remember on a Saturday morning at a 
conference in New Orleans we first met, I believe, having a cup 
of coffee there. My wife and I met with you and I have 
respected you since that time.
    You have tried over 200 cases. That is good experience in 
itself. You learn what the legal system is all about when you 
litigate. I was really impressed with your record over the 
years. I have watched it with great admiration. I was just 
delighted that the President saw fit to pick someone of your 
integrity and dedication and your understanding of what America 
is about to head the Drug Enforcement Administration.
    I have great affection and admiration for the DEA. They are 
some of the finest investigators I know. They work extremely 
hard. They often work nights and weekends when a drug deal is 
going down. It never seems to be during the day, eight to five; 
it is always when they have planned to be on a vacation with 
their family or something like that. It is very disruptive. I 
believe you understand that, and I believe that you will seek 
to do all you can to affirm them for the important work that 
they do.
    Asa, let me ask you this: do you believe that in our effort 
to reduce drug use in American that criminal law enforcement 
plays an important role?
    Representative Hutchinson. Thank you, Senator Sessions. 
Absolutely, I believe that criminal law enforcement, as I have 
mentioned before, does a number of things. It sends the right 
signal to the Nation that certain conduct is unacceptable, 
unhealthy, and not consistent with the values of this Nation. 
That is an important message and law enforcement sends that 
signal.
    Second, we talk about treatment and education. Many times, 
a law enforcement action will not result necessarily in jail, 
but many times results in rehabilitation and treatment. So it 
forces someone to confront their illegal activity, confront 
their need for help.
    Third, what I started to remark earlier, a lot of the 
letters I get talk about the concern of parents about the easy 
availability of drugs. And I think that goes to the supply side 
that you have to have the education and the treatment which is 
critically important and ultimately the solution, but you have 
got to deal with the supply side and the law enforcement side 
as well.
    Senator Sessions. That is well stated and I certainly agree 
with that. It is also a part of, I believe, a national 
statement that drug use is unacceptable. At its base, that is a 
moral argument that we do not and will not accept drug use in 
our society and we are prepared to punish those who participate 
in making that occur. I think that is very, very important.
    One of the things that I have expressed concern about 
recently in a letter to DEA--I believe we have written DEA and 
GAO--is some of the inaccuracy in reporting from some DEA 
agents about the number of cases that have actually been made, 
investigated and prosecuted. It appears that in Puerto Rico, 
for example, some very serious allegations arose that suggested 
they were simply claiming credit for any case investigated in 
their neighborhood almost.
    Are you concerned about that, and will you make it a 
priority of yours to make sure you have accurate accountability 
in the statistical information that you receive?
    Representative Hutchinson. I will, Senator, because 
whenever we have reports of inaccurate information, then that 
undermines the public confidence in what we are doing. It 
undermines the investment that we made from Congress' 
standpoint in law enforcement. So the statistics-gathering, the 
case reporting is critical. We only take credit for what we do 
and are responsible for, and so I will certainly do all that I 
can to make sure that it is accurate under my watch.
    Senator Sessions. Well, it will be important for you to 
evaluate how well your agents are doing, but as you know, more 
and more we are involved in task forces. There can be a 40-
person task force and one DEA agent assigned and one FBI agent 
assigned and one Customs agent assigned, and they arrest 10 
people and all 3 of them claim credit for arresting 10 people. 
That is not good information to make decisions on, and I hope 
that you will see if you can go pierce through all of this 
because we want to encourage task forces and investigative 
forces and I hope you will work on that.
    Another matter that I hope you will wrestle with and will 
not be afraid to discuss is your budget as compared to other 
expenditures of money for drug interdiction and resistance. For 
example, your budget runs about $1 billion; DEA's budget is 
about $1 billion. We are talking about spending $1.6 billion in 
Colombia over a year or 2 years to somehow reduce our drug 
problem.
    In my view, there is probably no more effective agency in 
the country in reducing drugs than DEA, and I hope that in the 
inner circles you will evaluate DEA's contribution and question 
some of the other moneys that are out there. Do you have any 
thoughts about that?
    Representative Hutchinson. Thank you, Senator, and I do. I 
think that the DEA, as you mention, is our most effective 
weapon in this effort from a law enforcement standpoint. It is 
a single-focus agency. There are extraordinarily professional, 
talented, dedicated women of the DEA, and I think that needs to 
be recognized.
    Whenever you look at the problem they face, it is enormous. 
And whenever we look at the budget, I know that in a number of 
arenas that hasn't been an increase and I will be advocating 
looking at it carefully as to what is effective, what works, 
and where your best investment will be, and I will certainly 
share that when I come to those conclusions.
    Senator Sessions. Well, I do think, from nearly 15 years 
working as a Federal prosecutor with DEA agents and other drug 
agents, that there is no more effective agency fighting drugs 
than the Drug Enforcement Administration. I do believe that 
sometimes leaders in Washington want to tell them they can only 
work some huge, big, big case. As a result of that, they don't 
start with mid-sized or smaller cases that work their way up 
into bigger cases.
    With regard to drugs, somebody got it ultimately from 
Colombia if it is cocaine. It always goes up to a higher and 
bigger organization, and to say you are not going to start at 
mid-level dealers and work your way up is really short-sighted 
and typical of a Washington view.
    You were the United States Attorney in a middle-America 
district. Do you have any insight into that mentality of 
Washington?
    Representative Hutchinson. I think the goal should be, 
Senator, that we disrupt the major trafficking organizations. I 
mean, that should be the focus, but you are exactly right that 
those cases begin at a lower level.
    One instance that you would identify with--I prosecuted a 
case out of Hot Springs. It was small quantities of cocaine, 
relatively speaking. They got that cocaine from New York City. 
The person in New York City got it from Colombia. I mean, it 
was a two-step process to bring that cocaine to Arkansas, and 
you are able to trace that. We have to go after that, but many 
times it starts at the lower level of the drug culture.
    Senator Sessions. My time is out.
    Chairman Leahy. Go ahead, go ahead.
    Senator Sessions. One more comment is I believe you need to 
look at convictions carefully, get good data, and insist that 
your agents are out making cases that are prosecutable. 
Ultimately, that is what you are paid to do, and I am not sure 
that the numbers that you are receiving based on this task 
force concept are as accurate as they were 20 years ago and we 
need to make sure that the taxpayers' money, if you get what 
you get or even more, is going to be well spent. I think 
accurate numbers is going to be key to that.
    Thank you, Mr. Chairman.
    Chairman Leahy. Thank you.
    Before we go to the distinguished Senator from Illinois, my 
memory was jogged when the Senator from Alabama mentioned three 
different agencies all coming and taking credit for the same 
arrests.
    When I was prosecuting cases, we had a police chief from a 
small town, a wonderful person, very popular on the dinner 
circuit. He spent very little time doing law enforcement and a 
great deal of time doing PR. We might be totally on the other 
side of the county and some major arrest would be made and he 
would hear it on the radio. It was off in the distance, but we 
would hear the siren as he comes wheeling around, usually 
getting there ahead of the TV cameras, kind of a four-wheel 
slide. He would jump out and by then the press would be set up 
and he would say, thank God we caught them; boy, we worked hard 
on this one, and off we would go. So I know what you mean. Not 
that that ever happens in the Congress, I want you to know.
    The Senator from Illinois.
    Senator Durbin. Congressman Hutchinson, thank you for 
joining us and thank you for meeting with me this morning. I 
really appreciated it very much.
    I guess it has been a year ago now that I met with the 
director of the Illinois Department of Corrections and we 
talked about some of the problems that he is facing. He gave me 
a statistic which I think is very important for us to reflect 
on at this hearing.
    In my home State of Illinois, in 1997, we had 500 prisoners 
in our State corrections system for the possession of a 
thimbleful of cocaine--500 in 1997. Currently, we have 9,000. 
The average incarceration period for a drug criminal in the 
Illinois prison system is 1 year. Yet, during that period of 
time, my State offers no drug treatment program to these 
addicts. They come in addicted, they leave addicted, but they 
have sharpened their criminal skills during their period of 
incarceration. That, to me, is a hopeless situation to allow 
that to continue.
    We take great comfort in arresting people and sending them 
off to prison, but if we don't take an honest and realistic 
view of addiction and how to deal with it, we are turning these 
addicts back out on the street, now that they have hooked up 
with gangs, hooked up with other criminals, still addicted, 
still looking for victims to finance their habit. That, I 
think, is a failure in our society if that becomes the norm, 
which it has been for so many years.
    I think that the DEA has taken some positive steps with 
demand reduction in the last few years. I think there is a lot 
more that we can do. I know that Senator Biden and others have 
already spoken about this, but I hope that we can invest in 
treatment. You just don't get the same kind of press attention 
to people who are graduating from a drug treatment program who 
now finally have their high school diploma that you get if you 
have a raid and you can stack up all the pounds of heroin and 
cocaine and marijuana in front of you before the cameras. Yet, 
we know, if the RAND study can be believed, that it is 
dramatically more effective in reducing drug crime to deal with 
the treatment situation, and I hope that as the head of the DEA 
you will do that.
    One of the other aspects of this which we discussed this 
morning that I want to just focus on very briefly is the whole 
question of racial profiling. Attorney General Ashcroft and 
members of the administration who have come before this 
committee have made it clear that they are really dedicated to 
eliminating racial profiling and I applaud them for that. This 
shouldn't be a partisan issue. If we are going to have justice 
blinded to a person's economic status or racial condition, 
whatever it happens to be, then we have to deal with this, I 
think, in an honest fashion.
    I asked General McCaffrey when he sat in that same chair a 
few years ago about this. I asked him about some statistics I 
had read and asked him if they were true. The statistics I read 
were these: African Americans represent 12 percent of the 
United States population; they represent 13 percent of its drug 
users. Keep that number in mind--13 percent of drug users. They 
represent 35 percent of people arrested for drug possession, 55 
percent of those convicted of drug possession, and over two-
thirds of those incarcerated in America for drug possession. It 
starts at 13 percent and ends up being over 60 percent.
    There is no way that you can read those statistics and 
believe that we are doing the right thing here. Filling our 
prisons with people of color in the name of drug enforcement 
may give us some comfort when we look at the numbers, but they 
don't give us comfort when we look at the people and realize 
that the vast majority of users are not black and brown. They 
are white, and they don't end up being arrested, convicted or 
incarcerated.
    What would you like to see done when it comes to the DEA 
and addressing this racial profiling issue?
    Representative Hutchinson. Thank you, Senator Durbin, and I 
appreciate your thoughtful attention to that issue and your 
passion with which you speak about it.
    I think it is important, one, on racial profiling that it 
end, and that obviously has an impact out there. Second, I 
think that when you look at our enforcement activities and who 
is targeted, you want to make sure that there is not any racial 
bias in the law enforcement procedures. That is something that 
has to be good management, something that comes from the heart, 
and I pledge that commitment.
    In addition, you mentioned the need for more drug treatment 
programs in prisons, and I share that view. I think that if we 
are going to send someone to prison, we have an opportunity 
there to change their lifestyle and we ought to take advantage 
of that opportunity. So I hope that we can do more in that 
regard. That is one of the reasons I certainly support drug 
courts because it intensifies the treatment option.
    Senator Durbin. Let me ask you one other question and then 
I will stop, and that is on Plan Colombia. I supported it. A 
number of people on the Democratic side were kind of surprised 
that I did, but I went to Colombia and met with President 
Pastrana. He took us out on a helicopter trip with his army in 
Colombia to a southern province known as Putamayo, and as we 
flew in that helicopter over these lush green fields the army 
officers pointed out all of the coca under cultivation, 
destined to become cocaine destined to come to the United 
States.
    I made a rough estimate that in the province that I 
visited--you are familiar, being from Arkansas, with St. Louis 
and the distance between St. Louis and Chicago, which is about 
300 miles. I estimated that what I saw under coca cultivation 
that day on that trip was the equivalent of a one-mile ribbon 
of coca production from St. Louis to Chicago 300 miles long, 1 
mile wide, under cultivation headed for the United States.
    So I supported Plan Colombia. I was disappointed that more 
South American nations did not, and I am curious as to whether 
or not, on reflection, it was the right vote and whether we 
should be continuing along this line. I think it is foolish for 
us to ignore production. It is, I think, foolhardy of us to 
ignore an administration like President Pastrana's, 
democratically elected, putting his life and the lives of all 
of his cabinet on the line trying to fight the narcotraffickers 
on the right and on the left. But I wonder if we have taken the 
right approach. If it comes up again, I am going to have to 
look hard at it and see whether or not it has worked.
    What is your impression?
    Representative Hutchinson. Well, like you, Senator Durbin, 
I supported Plan Colombia when it came through Congress, and I 
also believe that when you see President Pastrana taking some 
very heroic steps to preserve democracy there, when you see so 
many who are putting their lives on the line, that we need to 
help them. So I think that was the hard attitude of Congress 
when we supported that plan.
    I think it is important to look at the results that come 
in. That one-mile stretch--what progress will we make in 
reducing the coca cultivation there and what impact does that 
have on the rebel forces? What I have emphasized is the small 
part of the Plan Colombia, the criminal justice sector, very 
important, training the Colombian national police not only to 
obey human rights, but also to properly investigate a case, to 
help the court system, and I think that is an important part of 
it as well.
    Senator Durbin. Let me close by saying that I think you are 
going to do very well by this committee. I am really encouraged 
by the fact that so many of your colleagues, Democrats and 
Republicans, on the House Judiciary Committee are standing 
behind your nomination. I look forward to working with you.
    Thank you, Mr. Chairman.
    Representative Hutchinson. Thank you, Senator.
    Chairman Leahy. Thank you.
    We are going to be having a vote soon and normally I would 
go with the rotation going back to me, but I understand the 
Senator from Alabama has another question, so I would yield to 
him.
    Senator Sessions. I appreciated the comment Senator Durbin 
made about treatment and intervention in a person's life who is 
going astray.
    You mentioned, I believe, drug courts. I helped bring Judge 
Goldstein from Miami in the mid-1980's up to my hometown of 
Mobile, Alabama, to discuss establishing a drug court. One has 
been established and I think it works well. In my view, the key 
to it is that when a person is arrested for a drug offense, 
they are not just released on probation and told to behave. 
They have to come in on a regular, maybe biweekly basis. They 
are drug-tested regularly. They are confronted by a probation 
officer and a judge who watches them, and if they need 
treatment they are required to go to treatment and fulfill the 
requirements of that.
    When you do it that way, oftentimes you can send a lot 
fewer people to prison if they are going to be closely 
monitored when they are released, as compared to what we have 
been doing in the past, just release them, have them come in 
once a month and say hello to their probation officer.
    Do you favor that? Do you think we could expand our ability 
to confront people involved with drugs and effectively 
intervene and change their lives with a combination of tough 
love from law enforcement and treatment?
    Representative Hutchinson. I do. I think it is probably one 
of the most hopeful programs that is out there that combines 
enforcement and intensive treatment and can make a difference 
in people's lives.
    I was impressed when I went to California and saw a drug 
court demonstration--not a demonstration; it was a real-life 
episode where the defendants, the people that were subject to 
the treatment program came in with their counselor, with the 
prosecutor. The judge was there. They asked the question how 
are they doing on their drug test every week. They are taking 
it. Are they positive or negative? Are they going to the 
rehabilitation classes? Are they staying out of trouble, going 
to their job? They are keeping their employment, they are 
making their children support; that kind of oversight.
    It is a year program, and when you are looking at 
methamphetamine that has an intensive addictive quality to it, 
30 days is not enough. And so that is the advantage that drug 
courts give. The recidivism rate--the temporary statistics show 
that it is much improved with that kind of supervision.
    Senator Sessions. We are doing some studies and asking the 
Department of Justice to study just how well drug courts work, 
but we do know that in the period of time they are in the drug 
court's supervision they are certainly much less likely to 
commit crimes. Some drift back into crime after they get out of 
that supervision, but I think we have got to use those kinds of 
ideas.
    I would just like to remind you that during the period of 
time that this Nation took very seriously a resistance to 
drugs, we were able to reduce, according to the University of 
Michigan study, drug use by high school seniors by over 50 
percent from 1980 through 1992.
    We have shown some increases since then, and I think some 
of that was because we were sending an uncertain message or 
sounding an uncertain trumpet, that we were suggesting that, 
well, maybe it is OK to inhale; that is kind of cool. We don't 
need to be sending that message, and the combination of strong 
statements and aggressive law enforcement and intensive 
supervision of people who violate the law are the key, I think, 
to driving those numbers back down. We ought to not settle for 
anything less than a reduction in the current use of drugs in 
American, and we can achieve it.
    Chairman Leahy. I thank the Senator from Alabama. If we can 
reduce the demand in this country, we are far ahead of the 
game. We sometimes make a mistake, I believe, in blaming 
Colombia or any other country for all our ills. We are a Nation 
of over a quarter of billion people, the wealthiest Nation 
history has ever known, and with what seems to be an almost 
insatiable demand for drugs. The money is there. The production 
is going to show up somewhere. And we have got to do a far 
better job in decreasing demand here through a whole 
combination of things, whether it is law enforcement, it is 
education, it is rehabilitation, and some pretty positive 
example and reinforcement by parents in this country, too.
    I want to submit, because we are coming close to the time 
for a vote, and I want Senator Biden to have time, I am going 
to submit my questions for the record, but I do want to raise 
one issue. I am concerned about the way our asset forfeiture 
laws are working in this country. I am concerned that sometimes 
when you have asset forfeiture laws, law enforcement is more 
interested in what the asset is that may be forfeited than what 
the crime is that might be stopped.
    Somebody with drugs with an expensive car they own looks a 
little bit different than somebody who is using a beat-up rent-
a-wreck. A number of States have reformed asset forfeiture laws 
that really were becoming scandalous. They found that their 
police can get around the reforms by turning the seizures over 
to the Federal law enforcement agencies. An agency will keep 20 
percent and give 80 percent back. So even though the States 
have felt that there was a problem in their own State with the 
way the asset forfeiture laws were working and reformed them, 
police get around them by getting 80 percent of it anyway back 
from the Federal agencies. Now, they then avoid the State 
restrictions that earmark the forfeiture proceeds to education 
and treatment instead of going to the police department. They 
get around the more stringent proof requirements.
    I would hope that as head of the DEA your voice will be the 
strongest voice possible in this, that you will work to develop 
policies that would make sure Federal agencies are aware of 
what the States feel and aware that there have been State 
abuses so that we are not using the forfeiture laws in a way 
that is really abusive, because if they are, you know the way 
the pendulum goes. The States will get rid of them, and the 
Federal Government will get rid of them. And something that 
could be a real law enforcement tool will be gone. So will you 
please assure us--I don't expect you to have all the answers 
today, but assure us that this is an issue, the forfeiture 
issue is one you will look into.
    Representative Hutchinson. Absolutely, and I believe that 
asset forfeiture is a very important tool for fighting the 
major drug traffickers. I mean, it hits them where they don't 
want to be hurt. But we are going to lose that tool, as you 
pointed out, Senator, if we do not abide by the constitutional 
protections and by the law in taking that asset and proving the 
case on it.
    I think Congress did the right thing by reforming the asset 
forfeiture laws, making sure the burden of proof is on the 
Government and not on the citizen that has that asset to be 
taken. That was an appropriate reform, but it still allows this 
very effective tool to be used in the right cases. So I will 
certainly watch that to make sure that it is used appropriately 
and not abused.
    Chairman Leahy. Thank you.
    Senator Biden?
    Senator Biden. Thank you.
    Plan Colombia, again, sometimes when you get too close to 
things, you lose your perspective. But I received a call, I 
guess about 10, 12 days ago, from President Pastrana who 
periodically--about every 3 weeks--calls and gives me his view 
of what is going on. And as the record will show--I will not 
take the time now--his government is actually doing the hard 
stuff now, taking on the paramilitaries and taking on the 
paramilitaries up in the northeast where the ELN is operating. 
They have made some real progress. The coca production level is 
down, but as you know, it has to get way down for it to have 
any real impact.
    So, again, I would be reluctant for us to--I am not 
suggesting you are doing it--write off Plan Colombia as not 
having worked. He is doing about everything we are asking him 
to do. And now the Third Battalion is about to be fully trained 
and in the field, and so I hope you will do an analysis. But I 
suspect, I predict you will find it is more positive than the 
critics say it is.
    On the drug court issue, to put this in perspective, and 
the reason why you are going to have to fight for these drugs 
courts is that when that legislation was written, what finally 
prompted my colleagues to support it was my pointing out there 
were 600,000 people arrested every year out there who got 
nothing. Nothing happened to them. They didn't get probation, 
they didn't get parole, they didn't convicted--I mean, they got 
convicted, but after that, that was it. They were just 
released. Nothing.
    And so this is a lot tougher than the idea--it was 
originally characterized, as you will recall, as sort of some 
soft method of going about this. But as the Senator from 
Alabama points out and as you pointed out in California, it 
requires people to show up all the time, twice a week, et 
cetera.
    One of the reasons I raise it is in my State we have now 
initiated juvenile drug courts, and we have them in all of our 
counties. We only have three counties. It is easy to say ``all 
of our counties.'' But we have them in our counties now, and 
they are really working. I would like to invite you at some 
point--and I mean this sincerely--to come up and take a look at 
our drug courts and the juvenile drug courts to see, to give 
you a sense, because I think I can say without equivocation the 
most extensive drug court system in the Nation is in my State. 
And it has gotten very positive results.
    In prison, as you well know, every study shows that 
somewhere about close to 80 to 85 percent of the prisoners in 
prison have some substance abuse problem, and that very, very, 
very few get any treatment when they are in prison. And, again, 
in terms of cost, it costs $12,500 a year for residential 
treatment for cocaine addiction. That is a lot of money. It 
costs $40,000 a year for incarceration. It costs $17,000 a year 
for an extensive probation program. So the irony is the 
cheapest of the treatments is residential treatment in these 
areas. Those are the numbers.
    And so I hope that you will be able to, again, as it 
relates to the prison side of it, the National Center for 
Addiction and Substance Abuse at Columbia University said 70 to 
85 percent of the inmates in State prison need some level of 
treatment. You know what percent get it? Thirteen percent. 
Thirteen percent. And so we let out of the State prisons--
roughly 200,000, 250,000 people a year walk out of a State 
prison, get their $10 and their bus ticket, while addicted to 
drugs as they walk out because they have gotten the drugs in 
the prison, while they walk out, as they walk out the door of 
State prisons. And I don't know what you can do federally on 
that except your voice will be listened to. So I hope you weigh 
in on the fight to persuade our Governors as well that there is 
a need for in-treatment facilities.
    My one question is this: Do you think that there is a 
necessity based on your experience in Arkansas, like the 
Senator's experience in Vermont and mine in Delaware where you 
have rural States, do you think there is a necessity for you to 
take a look at the distribution of manpower in DEA and think 
about according more support to rural areas where the problem 
is growing faster than urban areas?
    Representative Hutchinson. Well, I do believe that it is a 
great need that with the growth of the Internet crime can be 
committed in a rural area just as easily as going to an urban 
center. And so coming from a rural State, I believe you have to 
make an investment of resources. Whenever I was United States 
Attorney in the 1980's, we had zero DEA agents in my district. 
They were out of Little Rock station there. We now have a DEA 
office in Ft. Smith and Fayetteville. It is a high-growth area, 
but it is still a rural area, but it has made a huge 
difference.
    I have always had the view that we ought to be able to 
fight the drug problems in rural areas as well as the urban 
centers. Now, I don't think you can necessarily just deplete 
the urban areas because there are huge problems there we have 
got to make investment in. But I would certainly agree that we 
need to review that to make sure that--I want our agents and 
our DEA folks out there making the cases where the crime is.
    Senator Biden. Well, I would like to request that you do 
take a look at the allocation of manpower, because the Senator 
from Vermont can tell you, one of the reasons why drug use is 
up in Vermont is because of the fact the cost of doing business 
in Boston and in Albany and in other places has gotten too 
high. It is easier to crack a market--you know that old 
expression. They asked Willie Sutton why he robbed banks. He 
said, ``Because that's where the money is.'' Why are they going 
to rural America? Because police departments are less prepared 
to deal with it, because the market is wide open, and because 
there is little competition. They are not shooting at each 
other on a corner to make sure Aramingo Avenue in Philadelphia, 
which has been a drug market, open-air market for years--it is 
dangerous for them to operate there with one another. But when 
they move to Harrington, Delaware, it is not as dangerous.
    And so I hope you will take a look at it. I appreciate it.
    Representative Hutchinson. I will and I would certainly 
love to come see the juvenile drug court in Delaware.
    Senator Biden. I will take you up on that. Thank you very 
much.
    Thank you, Mr. Chairman.
    Chairman Leahy. I thank the Senator from Delaware, and 
obviously your answer is music to the ears for anybody from a 
rural State. And as chairman of this committee and as a member 
of the Appropriations Subcommittee that funds the DEA, I will 
followup with you on that. I think it is extremely important.
    You know, you and I both come from rural areas, and we 
know, as Senator Biden has said, it is a different world. 
Everybody knows everybody else. In some ways, it is far more 
shocking when we see drug abuse coming there, but we know it is 
there. And as Senator Biden said, it is where the market is, it 
is where the money is, and it goes there.
    I will put into the record appropriate letters and 
statements of other members.
    I thank you very, very much for being here, and this 
hearing is recessed.
    [Whereupon, at 11:50 a.m., the committee was adjourned.]
    [Submissions for the record follow:]

                       SUBMISSIONS FOR THE RECORD

                                                Grand Lodge
                                  Fraternal Order of Police
                                       Washington, DC 20002
                                                      July 17, 2001

The Hon. Patrick J. Leahy
Chairman, Committee on the Judiciary
United States Senate
Washington, D.C. 20510

    Dear Mr. Chairman,

    I am writing this letter to advise you of the strong support of the 
Fraternal Order of Police for the nomination of Congressman Asa 
Hutchinson to head the Drug Enforcement Administration.
    We have had the privilege of working with Congressman Hutchinson, 
who served on the House Judiciary Committee and the Subcommittee on 
Crime, on a number of important law enforcement issues throughout his 
tenure in Congress. We worked with him to create and fund the National 
Center for Rural Law Enforcement, which provides needed training and 
resources for law enforcement agencies in rural America. According to 
the National Center for Addiction and Substance Abuse, drug use among 
young teens in rural America is now higher than in large urban centers. 
We believe that Mr. Hutchinson will bring a new perspective to fighting 
drug use in the United States. As a former U.S. Attorney, Congressman 
Hutchinson understands that our country needs to recommit itself to the 
war on drugs.
    We also worked very closely with Congressman Hutchinson last year 
on civil asset forfeiture reform. He authored a substitute amendment to 
protect the ability of law enforcement to continue to use civil 
forfeiture as an effective crime fighting tool. Ultimately, we 
succeeded in our joint efforts.
    I have every confidence that Asa Hutchinson will provide the same 
sure leadership for law enforcement at the Drug Enforcement 
Administration that he did in Congress. He will be an outstanding asset 
to DEA and to the war on drugs.
    If I can provide any further recommendations for Congressman 
Hutchinson, please do not hesitate to contact me or Executive Director 
Jim Pasco through my Washington office.
            Sincerely,

                                        Gilbert G. Gallegos
                                                 National President

                                <F-dash>

  Statement of Hon. Jon Kyl, a U.S. Senator from the State of Arizona

                         ARIZONA'S DRUG PROBLEM

    <bullet> The drug epidemic that America continues to fight takes on 
a different character in each region of the country.
    <bullet> This is no more evident than in Arizona where the 
geographic landscape makes it ripe for: international smuggling; 
homespun cultivation; and the widespread distribution of drugs.
    <bullet> First, Arizona shares its 350-mile southern border with 
Mexico. Drugs are transported across the border by vehicle, on foot, 
and through underground tunnels. For example, Colombian cocaine is 
smuggled into Arizona by Mexican trafficking organizations.
    <bullet> The northern part of the state is very rural and the 
remoteness and scattered population make it a haven for the cultivation 
of drugs.
    <bullet> Apache County, in the northeastern corner of Arizona, 
spans more than 11,000 square miles and over 60% of the land is 
situated on various federal reservations consisting of national 
forests, national parks, and Indian reservations. The population 
consists of only 70,000 citizens.
    <bullet> In the middle of the state is Maricopa County, of which 
Phoenix, Arizona's capitol is a part. The area includes 24 cities and 
towns, five Indian reservations, and one of the busiest airports in the 
world. The area also has three Interstate Highways and several State 
highways intersecting the country. The Phoenix metropolitan area is the 
fastest growing area in the country.
    <bullet> The DEA reports that Arizona is notably different than 
other regions of the country as the majority of drugs seized in the 
state are not intended for local use, but were seized while en route to 
other states.
    <bullet> Phoenix has become a major drug distribution center.

                          METHAMPHETAMINE LABS

    <bullet> This problem is reflected in the proliferation of 
methamphetamine, the production of which, has risen dramatically over 
the last ten years.
    <bullet> In the Southwest, production has reached epidemic 
proportions. In 2000, over 350 clandestine labs, primarily for the 
production of methamphetamine, were seized in Arizona.
    <bullet> As a result, Phoenix has the second highest rate for meth 
emergency room admissions in the U.S., according to the Drug Abuse 
Warning Network (DAWN).
    <bullet> The DEA was vital in supporting local law enforcement's 
seizure efforts by contributing more than $1.8 million to the clean-up 
of meth labs in Arizona.
    <bullet> The effort to investigate, seize, and destroy these labs 
is a daunting task, but is absolutely necessary to fighting the 
epidemic. The DEA is essential part of the support system.
    <bullet> The President's FY02 budget includes $48 million to help 
state and local authorities--$20 million for the clean-up of meth labs 
and $28 million for enforcement activities aimed at meth.

                           DRUG LEGALIZATION

    <bullet> Arizona is one of several states that has served as a 
testing ground for drug legalization initiatives spearheaded and funded 
by out-of-state donors.
    <bullet> In 1996, a ballot initiative, which passed, legalized the 
medical use of Schedule I drugs, including marijuana, methamphetamine, 
heroine, and LSD was funded with over $1 million dollars from out-of-
state donors looking to fulfill their own agenda.
    <bullet> These individuals are now funding similar initiatives in 
other states. In California, they contributed $3 million of the $3.5 
million dollar total to fund the passage of Proposition 36, a measure 
which mandates treatment rather than jail terms for non-violent 
narcotics offenders.
    <bullet> The opponents of Proposition 36, backed by dozens of state 
elected officials, spent only $340,000.
    <bullet> Now, the same individuals who funded Proposition 36 are 
planning similar efforts in Florida, Michigan, and Ohio with a budget 
estimated at $3 million per state.

                               CONCLUSION

    <bullet> States like Arizona look to the DEA for support in 
fighting the infiltration of drugs across our borders; the production 
of drugs in our backyards; and the undue influence of wealthy special 
interest groups who impose their personal agenda on communities whose 
resources are often scarce.
    <bullet> The partnership between state and local police, and the 
DEA establishes a united front against the widespread production, 
distribution, and usage of illicit drugs.
    <bullet> I am confident with your leadership at the DEA, that 
partnership will continue. I look forward to your confirmation and to 
working with you in the future.


</pre></body></html>
